<html>
<title> - ALTERNATIVES TO INCARCERATION: WHAT WORKS AND WHY?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





           ALTERNATIVES TO INCARCERATION: WHAT WORKS AND WHY?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 27, 2000

                               __________

                           Serial No. 106-176

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                   U.S. GOVERNMENT PRINTING OFFICE
68-775                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                 Gil Macklin, Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 27, 2000...................................     1
Statement of:
    Noel, Hon. Thomas E., Associate Judge, Circuit Court for 
      Baltimore City; Anne Swern, deputy district attorney, Kings 
      County, NY; Ron Daniel, police commissioner; Stuart Simms, 
      secretary, Maryland Department of Public Safety and 
      Correctional Services; Peter Beilenson, commissioner, 
      Baltimore Department of Public Health; Renee Robinson, 
      treatment/criminal justice coordinator, Baltimore/
      Washington HIDTA; and George McCann, executive director, 
      Baltimore Addict Referral and Counseling Center............    47
    O'Malley, Martin, mayor of Baltimore; and Dutch 
      Ruppersberger, Baltimore County executive..................     9
    Taxman, Faye, Ph.D., professor of criminology, University of 
      Maryland; Ricky Phaison, program participant, project 
      excel; and Israel Cason, president, I Can't, We Can........   133
Letters, statements, etc., submitted for the record by:
    Beilenson, Peter, commissioner, Baltimore Department of 
      Public Health, prepared statement of.......................    75
    Cason, Israel, president, I Can't, We Can, prepared statement 
      of.........................................................   151
    Hynes, Charles J., district attorney, Kings County, NY, 
      prepared statement of......................................   119
    Johnson, Judge Ken, article dated June 21, 1992..............   126
    McCann, George, executive director, Baltimore Addict Referral 
      and Counseling Center, prepared statement of...............   106
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Noel, Hon. Thomas E., Associate Judge, Circuit Court for 
      Baltimore City, prepared statement of......................    51
    O'Malley, Martin, mayor of Baltimore, prepared statement of..    13
    Robinson, Renee, treatment/criminal justice coordinator, 
      Baltimore/Washington HIDTA, prepared statement of..........    91
    Simms, Stuart, secretary, Maryland Department of Public 
      Safety and Correctional Services, prepared statement of....    81
    Swern, Anne, deputy district attorney, Kings County, NY, 
      prepared statement of......................................   114
    Taxman, Faye, Ph.D., professor of criminology, University of 
      Maryland, prepared statement of............................   140

 
           ALTERNATIVES TO INCARCERATION: WHAT WORKS AND WHY?

                              ----------                              


                         MONDAY, MARCH 27, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Baltimore, MD.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 730 of the University of Maryland School of Nursing at 655 
West Lombard Street, Baltimore, MD, Hon. John L. Mica (chairman 
of the subcommittee) presiding.
    Present: Representatives Mica and Cummings.
    Also present: Representative Cardin.
    Staff present: Sharon Pinkerton, chief counsel and staff 
director; Gil Macklin, professional staff member; Charley Diaz, 
congressional fellow; Lisa Wandler, clerk; Kimberly Hayes, 
intern; and Cherri Branson, minority counsel.
    Mr. Mica. Good morning. I would like to call this hearing 
of the Criminal Justice, Drug Policy, and Human Resources 
Subcommittee of the Government Reform Committee of the House of 
Representatives to order.
    We are pleased this morning to be in Baltimore at the 
invitation of my colleague, former ranking member with me on a 
number of subcommittees in Congress, the gentleman from 
Maryland, Mr. Elijah Cummings. I do appreciate this opportunity 
to be with you.
    We have delayed this hearing several times; I think the 
last time because of one of the largest snowfalls that we had 
in this area. But we are delighted to be with you.
    Again, I apologize for the delay in coming into your 
community, but thank you for your invitation.
    The order of our hearing this morning will be that I will 
start with an opening statement, yield to the gentleman from 
Maryland for his opening statement, and then we have three 
panels to hear from. The first panel is going to be the 
Honorable Martin O'Malley, mayor of Baltimore. And just for 
public notice, we have also added Dutch Ruppersberger, who is 
the Baltimore County executive. So we will have two individuals 
on that panel, and followed by two additional panels.
    Illegal narcotics are wreaking havoc on our neighborhoods, 
schools, and families across America. Drug abuse in America is 
tearing at the very fabric of our society. Nowhere is that more 
evident than here in Baltimore, MD, a city that certainly has 
experienced its share of pain and also the at risk consequences 
of illegal drugs. Unfortunately, Baltimore is a microcosm of 
what is happening across our country.
    The role of this Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources is to examine the effectiveness of 
the Federal response to a growing national drug epidemic. We 
are here as an oversight committee of the U.S. Congress. We are 
an investigations and oversight subcommittee of the Government 
Reform Committee.
    Part of our responsibility is exercising our oversight and 
investigations capacity over our national drug policy. This 
hearing is a bipartisan effort. My good friend and colleague, 
the Congressman from Maryland, Elijah Cummings, requested this 
field hearing to be held in his district in Baltimore because 
of his deep concern for the citizens of Baltimore and the drug 
problems they face every day.
    I can't remember too many hearings that I have attended 
with Mr. Cummings--and he has been to almost all of our 
subcommittee hearings--when he hasn't put a human face on the 
tragedy that has befallen his community and the problems 
relating to illegal narcotics here in Baltimore.
    Even a recent tragic event here in Baltimore shows the 
havoc drugs are wreaking on this community. A 25-year old East 
Baltimore man, Raymond Pitchford, was shot to death because he 
asked two men to stop selling illegal drugs. The simple truth 
is that drugs destroy lives, and drugs are destroying lives 
here in Baltimore.
    I brought this chart along, and I have used it on the House 
floor and in our committee meetings and updated it. This 
information is provided by DEA and also some recently by the 
Baltimore Police Agency. In 1997, there were 312 homicides 
committed in Baltimore. In 1998, 314 people were murdered. Last 
year, this city lost an additional 308 lives, and I don't think 
the total is in because sometimes people die as a result of 
injuries suffered in some type of an attack.
    This makes for 10 straight years in which there have been 
300 or more homicides, making Baltimore the fourth deadliest 
city per capita in the United States which is a very sad 
statistic. And 75 percent of these slayings, it is estimated, 
involve drugs.
    The chief of the control bureau of the Baltimore Police 
Department has stated recently, ``We are losing ground on 
homicides.'' The situation that Baltimore faces is grave. It is 
the hub of a growing heroin epidemic, which has spread to the 
nearby suburbs.
    According to Baltimore Councilwoman Rikki Spector, one in 
eight citizens in Baltimore is a drug addict. That is a quote 
from one of the local newspapers. That could translate into an 
estimated 60,000 to 80,000 drug addicts. According to State and 
local health officials, neighboring Prince George's County has 
37,000 drug addicts, second only to Baltimore City in the State 
of Maryland.
    How did this happen to a great city like Baltimore? What 
failed as far as local policies of the past 12 years to contain 
the drug program? What contributed to it? We must examine more 
effective ways to address the growing problem of illegal 
narcotics on our streets and also in our prisons.
    All of the witnesses here today have struggled to determine 
the best approach to combat illegal drugs and drug-related 
crime. What is the right mix of policies and programs to deter 
crime and to get repeat offenders off drugs? Developing 
alternatives to incarceration is becoming increasingly 
important as we draw closer to having two million Americans 
behind bars. We must determine the most cost-effective way to 
deal with drug addiction and also drug-related crime, both at 
the Federal and also at the local and State level.
    Sadly, the challenges faced by the newly elected mayor, Mr. 
O'Malley, and also by the Baltimore County executive who we 
will be hearing from, and other officials in the Baltimore 
area, are the very challenges increasingly faced by cities 
across America. Cities like Sacramento and San Diego, CA, where 
I recently held hearings. We conducted another hearing in 
Florida, where colleagues from this subcommittee went to hear 
the problems we are having even in my local, rather placid, and 
also blessed community as far as employment and opportunity.
    We will soon be in Indiana for a hearing, and other cities 
across the country, to examine this problem. But there are very 
few communities across our national landscape that have not 
been affected by this drug epidemic.
    This is an oversight hearing that will examine the drug 
abuse problem in Baltimore and its area, and also will look at 
alternatives to incarceration, what works and what doesn't 
work, and why. That has been the subject of our subcommittee's 
investigations.
    There have been serious proposals across our Nation, 
including our Nation's capital and here in Baltimore, on how 
best to combat drug violence and restore individual and 
community security and reduce overall drug use. These have 
ranged from needle exchanges and legalization of marijuana for 
medical use to tougher sentencing guidelines.
    For its part, Congress has provided local communities with 
some new tools, including the Washington/Baltimore High-
Intensity Drug Trafficking Area. That is a designation by 
Federal law creating what is called a HIDTA, High-Intensity 
Drug Trafficking Area. We have also passed legislation relating 
to Drug-Free Communities Act, and we have also enacted $1 
billion matched by $1 billion or more in donations in a 
national youth anti-drug media campaign.
    But clearly, more must be done. Individual field hearings 
like this help us to understand the plight of individual 
communities as we develop a broader national perspective. In 
order for the Congress to help Baltimore and cities like it, 
from the Federal level we must have a working knowledge of the 
problem at the local level.
    Armed with these insights, we can better evaluate the 
current Federal response to the drug crises in America and in 
communities like we are in today and push for needed changes. 
The good people of Baltimore and citizens across this country 
deserve no less.
    We came here today to listen. We came here today to hear a 
new administration of the city, particularly headed by the 
mayor, and also others from the surrounding area, to hear of 
their plans. We came here today also to offer a helping hand 
and assistance at the Federal level as good intergovernmental 
partners in facing the challenge of illegal narcotics, not only 
here in this community but, again, across our Nation.
    I might say in closing, Mr. Cummings, I have always felt 
that Baltimore is a great city with a great history. It is our 
opportunity at this difficult chapter in its history to come 
here to help you and also your community.
    With that, I yield to the gentleman from Maryland, my 
distinguished colleague, Mr. Cummings.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.001
    
    [GRAPHIC] [TIFF OMITTED] T8775.002
    
    Mr. Cummings. Mr. Chairman, I thank you very much for 
holding this hearing in Baltimore, and I am glad you ended on 
such a wonderful and positive note. We are a great city, and I 
thank you again for the sensitivity that you have shown. So 
many people on the Hill seem to be of the opinion that drug 
treatment does not work.
    But the fact is, that you have not only made it possible 
for us to move around the country looking at alternatives to 
incarceration, but you have concentrated your thoughts on 
having an open mind regarding treatment. And I appreciate that.
    I also want to take a moment to thank the dean of this 
wonderful school, the nursing school, Dean Heller, who is one 
of my mentors, for having us here this morning.
    As we examine the drug treatment policy this morning, it is 
quite fitting that we undertake our work in a place where young 
people are taught how to heal. Here in Baltimore, as elsewhere, 
drugs and violent crime are destroying our young people, their 
families, and entire communities.
    We must continue to work together to break this cycle of 
destruction. Although there is no simple solution to combatting 
the drug crisis, this hearing will provide additional 
perspectives on how we can reduce substance abuse and drug-
related crime, and ultimately, on how we can revitalize our 
communities.
    This morning, we will be working to assess the current 
situation in Baltimore and examine programs that combine drug 
treatment, social services, supervision, and job placement, as 
an alternative strategy to incarceration.
    As we examine these alternatives, we are fortunate to have 
the assistance of a distinguished panel of witnesses. Baltimore 
City mayor, Martin O'Malley, and Baltimore County executive, 
Dutch Ruppersberger, and other experts joining us today, have 
been major players in our shared effort to rid America of the 
drugs and the death that plague us as a society for many years.
    From the firsthand knowledge and accumulated wisdom of our 
panel, we will be better able to assess the current 
relationship between drug addiction and criminal activity in 
Baltimore. And it is good that you talked about other areas of 
the country, Mr. Chairman, because so often what has happened 
is people have thought that drug problems are only based 
primarily in urban areas. But the fact is, that they are all 
over the country, as I am sure County Executive Dutch 
Ruppersberger will testify to.
    By doing so, we can better understand the impact of 
incarceration and the effectiveness of treatment alternatives. 
Our testimony today will indicate that incarcerating drug-
addicted persons has not stopped the cycle of addiction, crime, 
and incarceration in Baltimore. Merely incarcerating non-
violent offenders does not appear to reduce crime or drug abuse 
either.
    In Congress, I am seeking to obtain increased Federal 
funding for drug treatment. This hearing will emphasize the 
success of drug treatment programs for non-violent offenders 
that includes drug treatment, job placement, and social 
services components. The success of certain jail diversion 
programs that offer drug treatment and employment assistance 
provides the criminal justice system with an alternative to 
incarceration--a way to break the deadly cycle that dominates 
so many lives.
    Now, let me caution to add that there are some people that 
belong in jail. There are some that are wreaking havoc on our 
community. But there are some that find themselves falling into 
a trap of narcotics, as Ricky Phaison, a recovering addict 
since 1987, will testify. And I am glad that he is here with us 
today.
    During the hearing, we will highlight diversion programs 
that focus on drug treatment, such as the Baltimore Drug 
Treatment Court and a New York Drug Treatment Alternative 
Program. Diversion programs work on the premise that with 
treatment, intensive supervision, social services, and job 
placement, offenders return to society in a better position to 
resist drugs and crime, and, just as importantly, to contribute 
to society as opposed to taking away from it.
    Dean Heller, you did a great job of getting the lights on, 
and we really appreciate it. [Laughter.]
    I told them while you were gone that you are my mentor, so 
I saw you rush to the rescue. You know, we really appreciate 
it.
    All of us agree that the public funds we devote to public 
safety and drug treatment must be spent in an effective and 
cost-efficient manner. And I emphasize that. One of the things 
that we have talked about constantly, Mr. Chairman, is whatever 
dollars we spend--the mayor and Commissioner Daniel have talked 
about this a lot, we want to make sure that they are spent in a 
cost-efficient and effective manner--diversion programs, law 
costs associated with incarceration, public assistance, health 
care, and recidivism.
    Further, they produce taxpayers that can make positive 
contributions to society. As a Member of Congress, my goal is 
to make Baltimore a more livable community. And there are so 
many of us--the people, Mr. Chairman, that sit in this room, 
that they spend their days and nights trying to figure out how 
to do that. And the person that will be testifying first, our 
mayor, is one who has made it clear that he wants our city to 
be more livable.
    One of the other things that I was so glad that you said--I 
wish I had a tape recorder here so I could play it over and 
over again--is that you said you came here to help, and I love 
that. I mean, you can say that 50 million times, because we do 
need help. I don't think there is a person in this room that 
would say that we don't. And I am glad that you come with the 
helping attitude.
    Finally, reducing the crime and drug abuse that afflict our 
community and returning our addicted neighbors to healthy and 
productive lives are essential steps toward a Baltimore that is 
a more livable place in which to live and raise our families. 
We are determined to break the cycle of drugs, destruction, and 
death. We can achieve that goal by creating a new cycle of 
renewed public health, productive employment, and life.
    And, again, I want to thank all of our witnesses, all of 
you, for taking the time out of your busy schedules to be with 
us today. Thank you for being on that front line of making our 
community a much more livable one.
    Mr. Mica. I thank the gentleman.
    I am pleased now to recognize our first panel of witnesses, 
if those individuals will please come forward, the Honorable 
Martin O'Malley, mayor of Baltimore; the Honorable Dutch 
Ruppersberger, Baltimore County executive.
    Let me, if I may, reiterate this is an investigations and 
oversight subcommittee of the House of Representatives. In that 
capacity, we do swear in our witnesses, which I will do in just 
a moment.
    If you have any additional or lengthy documentation, 
information, that you would like to be part of this 
congressional record of this hearing, upon request, through the 
Chair, that will be granted.
    Mr. Cummings, I think we have a previous agreement to allow 
the record to be open for at least 3 weeks.
    Mr. Cummings. That is correct, Mr. Chairman.
    Mr. Mica. Without objection, so ordered. And since we have 
three fairly full panels, and it is impossible to hear from 
everyone. There are many people, I am sure, Mr. Cummings, in 
this room that could contribute and be a part as an active 
witness to this hearing.
    With that said, we will leave the record open for 3 weeks. 
You can submit, through Mr. Cummings and to the subcommittee, 
any additional comments, even though you may not be a witness, 
or testimony you would like to be part of this record.
    Mr. Cummings. That is fine.
    Mr. Mica. All right. With that, I will ask our two 
witnesses to please stand. Raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. I 
would like to, again, welcome both of you today. We are pleased 
to be in your community at the invitation of Mr. Cummings. We 
are anxious to hear from you, and I will recognize first Mayor 
O'Malley. You are recognized, sir.

 STATEMENTS OF MARTIN O'MALLEY, MAYOR OF BALTIMORE; AND DUTCH 
           RUPPERSBERGER, BALTIMORE COUNTY EXECUTIVE

    Mr. O'Malley. Thank you very much, Mr. Chairman, and 
Congressman Cummings. I want to thank you for coming to 
Baltimore and assure you that we will in the future pay our 
BG&E bill in anticipation of your arrival. [Laughter.]
    Mr. Chairman, distinguished members of the committee, I 
want to thank you for the opportunity to address this topic--
``Alternatives to Incarceration: What Works and Why?'' I have a 
number of people from my cabinet, who I think you are going to 
be hearing from later, including Commissioner Ron Daniel, who 
is the gentleman in the uniform seated behind me, and he has, 
coincidentally, a big profile in the Baltimore Sun today, which 
he claims he hasn't yet read. So people, please give him mixed 
reviews, and maybe he will read it.
    We also have with us Dr. Peter Beilenson, our commissioner 
of health, seated to Commissioner Daniel's left, and our 
criminal justice coordinator, Peter Saar, who is seated back 
there, who tries to keep it all together.
    What works and why? I would like to thank you for making 
this hearing possible. During the last city campaign this last 
summer, the people of Baltimore made it very clear that 
reducing crime was their top concern. Indeed, in the 3-months 
since we have begun this new administration, we have made it 
our top concern.
    In short order, we have zeroed in on 10 areas of the city, 
where we have gone through in a very comprehensive fashion, 
putting together not only renewed commitment to enforcement but 
also we have put out health experts and knocked on doors and 
gotten people the treatment that they need to get off the 
street. We have also eliminated the rotation of homicide 
detectives to end the brain drain that dramatically reduced our 
clearance rate in a once vaunted squad.
    We have moved detectives out of headquarters into our 
districts to improve intelligence sharing and followup. We have 
audited arrest records to get a true gauge of our city's 
baseline crime problem. We have replaced our department's 
leadership and reorganized its structure.
    And we have instituted the means and the method of 
improving every week and every day, as we followup on crime, 
and that is the Comstat process. This was used so successfully 
in other cities like New York, like New Orleans, like Newark, 
and now Baltimore, not just to map crime but to anticipate 
crime trends, prevent crime, rather than reacting after it has 
already become entrenched.
    Additionally, we have provided additional resources to the 
State's Attorneys Office--the first time in probably 12 years 
that the State's Attorneys Office has received a budget 
increase in city dollars--so that Mrs. Jessamie will be better 
able to prosecute repeat violent offenders.
    And we have worked with the judiciary to implement reforms 
to restore real justice and a sense of priorities to our 
criminal justice system. These changes will allow us to dispose 
of minor cases up front in the process and create more 
courtroom time to prosecute serious violent offenders.
    We have tried to do a great deal in a short period of time, 
Mr. Chairman. In the interest of saving a couple thousand 
words, I have brought with me two pictures that appeared in the 
Baltimore Sun. There is a couple of quotes from the Baltimore 
Sun that characterize some of our initial success.
    I want to show you first of all--stray from my script--this 
is an article that appeared on December 15, 1999, has an 
adorable little girl over at Eutaw-Marshburn Elementary School 
in West Baltimore. Now the headline on this is ``Addicts and 
Drug Dealers Overrun Playground.'' And if you look around the 
window that this little girl is peering out of, you see what 
appears to be a couple of metal doors that are absolutely 
pockmarked with bullet holes.
    That was on December 15th. It appeared the day after I met 
with our Governor and told him, ``We need more money for drug 
treatment, Governor.'' I wrote in the little margin of this--I 
sent him his own copy framed and matted--I said, ``This is why 
we need more drug treatment money. It is not so much for the 
addicts. It is not for the people that run the programs. It is 
because of kids that can't go outside because of the death and 
the violence spawned by the drug trade.''
    That was December 15th. Thanks to Commissioner Daniel, and 
even though he did not receive any assurance of additional 
moneys for drug treatment in the Governor's first budget, come 
March 16th this was what appeared in the Baltimore Sun, Mr. 
Chairman. It is almost like the Wizard of Oz.
    The first one is black and white with the little girl 
peering out of pockmarked, bullet-holed doors, and this now is 
that same play area--Eutaw-Marshburn--color photographed with a 
bunch of adorable little girls. The headline is, ``Crime at 
Bay, Pupils Play,'' and a Mom says, ``This corner used to be 
wild. I just started bringing my kids out about 2 weeks ago.''
    That is what can be done, Mr. Chairman, if we are committed 
not to simply arresting our way out of the problem, or to 
simply treating our way out of the problem, but to doing both--
to doing both in a concerted and coordinated fashion, and to 
improving the quality of life that can lead to the sort of 
decline that too many neighborhoods in this city have 
experienced.
    By upgrading our police department, enforcing the law, 
incarcerating violent offenders, and reforming our criminal 
justice system, we can and are making our streets safer. But we 
also have to recognize that the high crime rate is driven 
primarily by an illegal drug trade, which is true in so many 
cities across the country.
    While noting crime-fighting successes, the articles that 
have appeared recently in the Sun also refer to open air drug 
markets, which are a scourge in almost every corner of our 
city. In answer to your question, what works and why? I will 
focus primarily on drug treatment, which speaks to Baltimore's 
largest law enforcement problem.
    Removing the most violent dealers and enforcers from the 
street will help the supply side of the drug trade, but the 
criminal justice system and elected officials must also address 
the demand side of the equation--the addicts--or new drug thugs 
who will take the place of Baltimore's current pool. To reduce 
demand for illegal narcotics, we must succeed in providing drug 
treatment. More treatment slots are needed to meet this 
overwhelming need.
    We can't simply arrest our way out of our drug problem, but 
we need not give up and decriminalize illegal behavior either. 
In order to break the cycle of crime and addiction, we have to 
build a seamless system of law enforcement, drug testing, 
escalating sanctions, and treatment. Society benefits by 
treating an addiction that will, if left unattended, invariably 
contribute to more crime.
    Additionally, a reduction in trial detention bed days and 
incarceration bed days after convictions will also save 
taxpayer dollars. The public is protected because the sanction 
of jail time remains if a non-violent offender fails to 
complete treatment or commits another crime. This system will 
leave more room in jail not only for repeat violent offenders, 
but it will also allow for more courtroom time to deal with 
those who should receive more serious incarceration penalties.
    For drug treatment to work as an alternative incarceration, 
above all there has to be strict accountability. According to a 
report by Baltimore/Washington HIDTA, offenders in treatment 
who were there under the threat of criminal sanctions are six 
times less likely to drop out of treatment, eight times less 
likely to test positive for drugs during treatment, and four 
times less likely to be arrested for a new offense.
    Baltimore will increase the number of treatment slots 
reserved for offenders. Hopefully we will do that with State 
help. The threat, and imposition when necessary, of criminal 
sanctions can be a powerful motivator for change. But it only 
works when treatment slots are available and participation is 
supervised.
    Treatment should also be provided in detention and prison 
facilities as part of that continuum of care for this problem, 
which is another push that we have on at the State level--to 
allow for some sort of detox capacity over at city jail and 
some better linkage with treatment after incarceration.
    Finally, alternatives to incarceration also must maximize 
the use of community service as penance for minor offenses in 
conjunction with drug treatment, mental health, medical, and 
job training referrals. Paying back in the community where an 
offender has violated the laws gives a visible reminder that 
there are consequences for wrongdoing.
    For too long in Baltimore, and presumably many other 
cities, accountability has been lacking in all aspects of our 
anti-drug efforts. But the solution is not to stop funding 
treatment or deny that it is a useful alternative to 
incarceration. The answer is to demand and document results and 
move toward best practices.
    One of the things that I told our Governor was that we were 
able to have this dramatic success because we had treatment 
slots available. So when the police went in, our health 
commissioner came in right on his heels, along with people from 
Housing to board up the houses. But our Health Department went 
in and literally with the easy supply removed from the street, 
it made the addicts far more amenable, far more susceptible, 
far more willing to go right into a drug treatment program.
    Those slots are filled up. We are now at 110 percent, and 
that is with putting about $26 million of our own city money 
into drug treatment. We are hopeful that through your 
leadership, Mr. Chairman, the Federal Government will make drug 
treatment a budget priority, that drug addiction and drug-
related crime are critical concerns to our cities and counties 
and small towns across America.
    It is a national problem. It is not a problem that affects 
merely poor people living in cities. If you come out with us on 
any corner, Mr. Chairman, in the evening--and sometimes we have 
done this, the Congressman knows, when we have had a night out 
against drugs--you will see countless numbers of people from 
surrounding jurisdictions come in, usually young, white kids, 
from the suburbs coming in, making the U-turn, and booking out 
when they see that we have closed down the drug market for the 
night.
    It is a problem that crosses all jurisdictional lines. It 
is a national problem. And the course that we are pursing in 
Baltimore, I am glad to report, is having some initial success. 
And I want to thank you for the opportunity to address your 
distinguished panel.
    [The prepared statement of Mr. O'Malley follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.003
    
    [GRAPHIC] [TIFF OMITTED] T8775.004
    
    [GRAPHIC] [TIFF OMITTED] T8775.005
    
    [GRAPHIC] [TIFF OMITTED] T8775.006
    
    [GRAPHIC] [TIFF OMITTED] T8775.007
    
    [GRAPHIC] [TIFF OMITTED] T8775.008
    
    [GRAPHIC] [TIFF OMITTED] T8775.009
    
    [GRAPHIC] [TIFF OMITTED] T8775.010
    
    [GRAPHIC] [TIFF OMITTED] T8775.011
    
    [GRAPHIC] [TIFF OMITTED] T8775.012
    
    [GRAPHIC] [TIFF OMITTED] T8775.013
    
    [GRAPHIC] [TIFF OMITTED] T8775.014
    
    [GRAPHIC] [TIFF OMITTED] T8775.015
    
    [GRAPHIC] [TIFF OMITTED] T8775.016
    
    [GRAPHIC] [TIFF OMITTED] T8775.017
    
    [GRAPHIC] [TIFF OMITTED] T8775.018
    
    [GRAPHIC] [TIFF OMITTED] T8775.019
    
    [GRAPHIC] [TIFF OMITTED] T8775.020
    
    [GRAPHIC] [TIFF OMITTED] T8775.021
    
    [GRAPHIC] [TIFF OMITTED] T8775.022
    
    [GRAPHIC] [TIFF OMITTED] T8775.023
    
    Mr. Mica. Thank you, Mayor.
    We will now hear from the Baltimore County executive, Mr. 
Ruppersberger. You are recognized, sir.
    Mr. Ruppersberger. Well, thank you, Chairman Mica. Thank 
you for being here today, and we really appreciate your coming 
to Baltimore to really focus on the awareness of the problems 
that we are having here.
    Congressman Cummings, as usual, you are always on the front 
line trying to do the best you can for your constituents. I 
give you credit for putting this issue on the table, and it is 
great to work with you in that regard.
    To begin with, let me tell you a little bit about Baltimore 
County, Mr. Chairman. We are a separate jurisdiction from 
Baltimore City, but yet we surround Baltimore City. So we are 
impacted by what happens every day in Baltimore City, and then 
we have other counties within the jurisdiction. There is no 
question that our criminal justice system is failing when so 
many individuals who go through the system get right back on 
the street.
    We have had recently in the last month some unfortunate 
situations in Baltimore County. We had a police officer who was 
killed, and as it turns out we looked at the background of 
those individuals who allegedly killed the police officer, one 
of the individuals was arrested over 20 times within the 
criminal justice system. And that does not include juvenile 
crime. And it was--the system failed, and unfortunately we 
weren't able to get to that individual earlier.
    This revolving door as far as the criminal justice system 
has to stop. And I am not pointing fingers. I think from a 
Federal, State, and local level, we have to look at our 
criminal justice system, understand that it is not functional 
at this point, and there have to be some changes.
    We have situations right now where the recidivism rate is a 
continual rate, when people are in jail, they get out of jail, 
and they continue to commit crimes. We have parole officers and 
probation officers that literally don't have the time to 
monitor these individuals.
    We have individuals who were in jail, and they could be in 
jail between 18 months or 10 years, and when they get out of 
jail there is very little help from a job training point of 
view, or anything of that nature. So these individuals go back 
to the community where they committed crimes, and it happens 
over and over again.
    I know of a situation where an individual was a heroin 
addict, went to jail, I guess went through the cold turkey or 
whatever, a couple of years later came out of jail and went 
right on a methadone program. I mean, these are the type of 
things that are happening over and over again.
    Now, what can we do to really make a difference? To begin 
with, again, a Federal, State, and local issue. But if you are 
talking about doing and changing the criminal justice system, 
you have to talk about money. I mean, we have to make--we have 
to pick our priorities, and, in my opinion, there has to be an 
entire reevaluation of where we are in the criminal justice 
system, and are we willing to readjust our priorities and put 
money where it needs to go.
    To begin with, I think that the No. 1 issue is that we have 
to capture our children. We have to make sure that we start 
focusing on young children before they get to a level where 
they are going to make a difference. Now, how do we do this?
    I know that in our county, as an example, we have put a 
tremendous effort on what we call police athletic programs, 
where we have both our recreation and parks and our police 
working with children who after school get in trouble. We bring 
them into these programs. We have a PAL center in every 
precinct in our county right now, and we made that a priority.
    We have over 5,000 children in the last 5 years that have 
gone through this program. And we can show you, as an example, 
in an area of our county called Arbutus, where we put a PAL 
program in and within that year period we had a 30 percent 
reduction in juvenile crime. If we don't capture these 
children, they are going to be the next level.
    We also, in our PAL programs, do things to get them in 
there. For instance, we provide karate, so we get the young 
kids who think they are tough--we get them in, we teach them 
karate, and then we also hook them and we teach them values and 
homework and leadership. And that does make a difference.
    We also have another program called JOINS, where the first-
time offender for a juvenile--a lot of times juveniles 
understand they are not going to get in trouble, so they keep 
committing crimes. And our police officers aggressively work 
with our juvenile justice people to work with these individuals 
right away, the first crime they have committed. And we have 
shown that if we can get these individuals early, it does make 
a difference.
    The issue of drugs--we have got to do more as far as drug 
treatment is concerned. We need programs that work, not just 
warehousing. There are some people, as Congressman Cummings 
said, that should be in jail. These people are a menace to our 
society, and our police officers have to arrest them and they 
have to be put in jail. These are the people who are murdering 
on a regular basis.
    But there are other individuals who are in jail that should 
not be in jail. There is a program in Baltimore County that we 
have that has been rather successful, and it is called Right 
Turn of Maryland. This is a privately operated residential 
program that serves the adult residents of Baltimore County who 
are currently involved in the criminal justice system, have a 
history of criminal justice behavior, and have a diagnosed 
substance abuse problem, and substance abuse is a contributing 
factor to their criminality.
    Now, this is a long-term program with close monitoring from 
both parole and probation, and from random drug testing, to 
ensure their sobriety. This is a comprehensive program because 
it looks at each individual and tries to examine the cause of 
his or her addiction, criminal record, and drug history to 
determine ways to improve his or her life.
    We have been very encouraged by the results of this 
program. It is in its 6th year in operation within our county. 
This program combines an atmosphere of minimum security work, 
work release setting, and drug abuse treatment program. 
Individuals are mandatory sentenced to this program by the 
courts for 1 year and 28 days, no less. They spend 28 days in 
residential treatment, followed by a 1-year closely monitored 
followup program mandated by the courts.
    Now, in a followup study of just 250 graduates of this 
program, the recidivism rate when they entered the program was 
35 percent after 2 years. The recidivism rate dropped 7.4 
percent after going through this program. It is important that 
we continue to move forward in those type of programs that make 
a difference and make a result.
    In closing, we need to refocus our priorities as far as 
money is concerned. As a local elected official, when we needed 
police help, when we received money from Washington directly to 
the local government, we were able to put police officers on 
the street right away.
    So many times when you go through a Federal bureaucracy and 
a State bureaucracy, by the time the local government gets the 
money, half the money is gone. And I would encourage you to 
really look at some of these programs, and if money is going to 
be coming bring it directly to the local government who is 
working with respect to that program.
    And we feel very strongly that if we have the resources and 
we are held accountable for what we can do, we can make a 
difference.
    I have here with us today our Health Officer, Dr. Michelle 
Leverett; our deputy director of Social Services, LaFrance 
Muldrow; and chief of staff, Terry Young, are also here today 
to observe and take part in this.
    Thank you very much for coming to Baltimore.
    Mr. Mica. Thank you. Let me, if I may, ask a few questions. 
And I will start with the mayor. One of the things that has 
concerned me about Baltimore is the incredible rate of 
addiction. I have various reports that are given to me from 
DEA, which estimates around 40,000, which was several years 
old, addicts. I have heard repeated 1 in 10 citizens is a drug 
addict, and then I read one of the city councilwomen, Ms. 
Spector, said it is more like 1 in 8.
    The Census Bureau estimates that the city of Baltimore has 
a population of 645,593. I don't know if that is current. We 
will soon find out. Using her statistics, it would indicate 
that Baltimore has somewhere in the neighborhood of 80,000 
addicts. Something has gone wrong here, dramatically wrong. If 
we had this and applied this, even the 1 in 10 figure, across 
the Nation, we would be looking at 20 million drug addicts. And 
I don't know of too many other communities that have this size 
of an addictive population.
    Mayor, can you shed some light on how we got into this 
situation?
    Mr. O'Malley. Yes. Let me try to do that delicately. Mr. 
Chairman, I was a prosecutor for my first couple of years as a 
lawyer. Before I got this full-time job, I was a lawyer. And I 
actually used to work for Stu Simms, who is here, our Secretary 
of----
    Mr. Mica. I understand also--is your wife a prosecutor?
    Mr. O'Malley. She is a prosecutor in Baltimore County, yes.
    Mr. Mica. I might have to subpoena her and ask her her 
opinion. [Laughter.]
    Mr. O'Malley. Good. I would enjoy the opportunity to talk 
with her. [Laughter.]
    Mr. Mica. It might give you two some face time. [Laughter.]
    Mr. O'Malley. You know, one of the things I learned from 
the Jesuits when I was in high school is that expectations 
become behavior. There was a debate raging about 8 years ago, 
10 years ago, and I think many who advocated that felt honestly 
that there was nothing we could do about illegal narcotics and 
the violence and the despair and the addiction that had spawned 
until we legalized it.
    Now, imagine if you would a Governor of a State saying that 
we should treat environmental pollution as an economic 
challenge rather than a crime. You can imagine the sorts of 
businesses that would be attracted to a jurisdiction where the 
top elected officials espouse that view.
    So I think what went on was a number of things. Our police 
department for years was told, even by its top commanders, that 
there is nothing we can do about it. There is nothing we can do 
about it. I wish I had a dime for every time I heard our former 
police chief say, ``You can't arrest your way out of the 
problem.'' And so we kind of got diverted, and we thought that 
if we opened enough PAL centers that that would somehow 
miraculously take violent offenders off the streets.
    So that is what has gone on in the past. I think other 
cities, though--and I think that maybe we should have gotten 
out of that ``should we legalize it or not legalize it'' debate 
years ago in our city. And we are a little bit behind the curve 
on this.
    Other cities, like New York, Pittsburgh, Newark, New 
Orleans, started showing that while you might not be able to 
simply arrest your way out of the problem, if you start being 
more proactive, more data driven, more relentless in your 
police efforts, you actually can take a lot of the violent 
offenders off the street. You can have a lot more interaction 
with your addicted population. And you can be much more 
successful in restoring that quality of life to our street 
corners.
    So I think to answer your question, the way we got into 
this problem was, we were very late, among other American 
cities, to abandon the notion that this is simply a health 
problem and that it should not be treated like a criminal 
problem. I think now we have restored a sense of balance.
    I have asked the former administration's health 
commissioner, Dr. Beilenson, to stay on with us because he does 
understand addiction. He does understand treatment. As the same 
time, we brought in experts from New York City, who have also 
been active in Newark and New Orleans and put them together 
with our new police commissioner, who understands this 
department's challenges and the nuances of this city, and doing 
both treatment and better enforcement together we are going 
to--you are going to see us join the ranks of the dramatically 
safer cities of America.
    Mr. Mica. Absolutely pleased to hear that. You know, God 
bless the people with the bleeding hearts, but it does take 
some tough enforcement combined with treatment. I am convinced 
of that the more I see.
    We have looked at cities. We have been to New York City. We 
held a hearing on tough enforcement--Richmond. They were 
slaughtering people at probably the same rate you have had, cut 
it in half with Project Exile, which also goes after guns, 
those who misuse guns in offenses.
    But it has given this city not only a nightmare, but you 
have inherited a formidable task. And I am sure this has 
spilled over into the suburbs. Unfortunately, it spreads like a 
cancer.
    The other thing we found, too, and where we put pressure on 
tough enforcement, they do flee to the next jurisdiction. We 
have seen that.
    You indicated that you have had problems getting money from 
the State for drug treatment. Is that correct?
    Mr. O'Malley. Yes, sir.
    Mr. Mica. Well, that concerns me, too. Since Mr. Cummings 
and I have worked together, we have increased drug treatment 
funding some 26 percent in less than 5 years at the Federal 
level. And I am seeing the money go to the State level, and we 
try to send it there with as few strings attached as possible. 
That has been our philosophy; the locals know best.
    But then we have seen that the money isn't getting down to 
where the problem is. And there is also a lot--I don't want to 
say ripped off, but absorbed in administrative overhead, which 
we just held a hearing on. And we are trying to get that money 
to the people who are on the front lines and where it is 
intended to go.
    So I am going to ask the staff if we can review the 
Maryland block grant program, and also funding into this 
jurisdiction.
    The next question I would have is the HIDTA, the 
effectiveness of the HIDTA, which is supposed to be our effort 
to help your effort in going after the traffickers, the dealers 
and death. How can we do a better job there? And how would you 
assess where we are now? Mayor.
    Mr. O'Malley. You know, the person who would be in a better 
position to answer that, Mr. Chairman, would be our police 
commissioner----
    Mr. Mica. We will hear from him and his----
    Mr. O'Malley [continuing]. As he hits me in the kidneys.
    Mr. Mica. OK. [Laughter.]
    We will hear from him in a minute.
    Mr. O'Malley. OK.
    Mr. Mica. But----
    Mr. O'Malley. My experience with HIDTA----
    Mr. Mica. You have been on the council and----
    Mr. O'Malley. Sure. I was on the council. I was also a 
member of the defense bar for a time. I have been on both sides 
of it. I think the most effective law enforcement we do in this 
city when it comes to doing some higher level drug 
investigations is through HIDTA.
    Mr. Mica. Well, I don't want to--I don't--you know, it is 
sort of sensitive working with some of these agencies. But I 
want to know how--what your relationship is with the Federal 
agencies--DEA, FBI, Customs, whoever it takes. Is there a good 
working relationship, in your opinion? Or is that developing? 
Is the HIDTA assisting you in your efforts to go after--this 
stuff is coming in from outside your community.
    Mr. O'Malley. Right.
    Mr. Mica. I don't know any coca that is grown here, or 
poppies--[laughter]--in this area. Could you comment?
    Mr. O'Malley. Sure. I think in the years past HIDTA has 
operated almost as a sort of island out there. And there has 
not been the level of cooperation or the enthusiasm to that 
partnership from the local standpoint that there could be.
    A lot of our police officers really want to get assigned to 
HIDTA, and I think now over these last few months there has 
been a lot more--how can I say it--optimism, both on the 
Federal side and on ours certainly. I mean, HIDTA has all of 
the best tools. They have the best intelligence. And we are 
looking forward to having a much better working relationship 
with them.
    Mr. Mica. OK. That is good to hear, Your Honor. In that 
regard, Mr. Cummings, I am going to ask all of those 
individuals involved at the Federal level with the HIDTA, and 
the local officials, to meet with us in Washington within the 
next 2 weeks. We will meet in Washington, and we will see what 
is working, what isn't working, and why it isn't working, and 
what we need to do to make it function as efficiently as 
possible. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Chairman, in that regard, I would 
suggest that maybe we talk to our commissioner and our chief of 
police. The mayor and I were both former prosecutors. In my 
role as a prosecutor, I was an investigative prosecutor and 
worked with FBI, DEA, all of the different agencies.
    We find that on a local level the money, the informants, 
the ability to help us on long-term wiretap investigations, 
helps with respect to HIDTA. But, you know, crime has no 
geographical boundaries.
    The mayor and I have committed to work together on a lot of 
the issues that you have talked about. Just in Baltimore 
County, 39 percent of our violent crime comes from persons who 
live in Baltimore City. And we realize that as the city goes, 
our other jurisdictions are impacted.
    As a result of this--and I am glad to hear you say about 
the money coming--not getting to the local government, and I 
believe that is the case in a lot of situations. I think a good 
program that I mentioned before in my testimony was when we 
received police money directly. It went right to the local 
government, and within a short period of time allowed us to put 
a lot of police officers on the street. And we were able to be 
very--we were effective. We brought our crime rate down. It 
makes a difference.
    You know, we all deal--we manage bureaucracies. But we find 
that if we can get the money directly without a lot of people 
who have to write reports and manage--and we want to be held 
accountable--but if we have shown that we can handle it, I 
would suggest that we need money directly, right now, for these 
drug programs, and also for other programs in helping to take 
these criminals off the street that should be in jail.
    Mr. Mica. Finally, before I yield to Mr. Cummings, one 
question. Last night, my wife and I came--we were in 
Pennsylvania and came back, stopped in Baltimore for dinner. 
She was driving and got lost, so we ended up in Little Italy 
and parked, actually, I think next to a public housing project. 
And those projects receive a great deal of Federal funds. Do we 
have an effective--and it didn't look like it was exactly the 
best situation. Do we have an effective enforcement program and 
drug-free zone in there?
    I just visited last Sunday--we held a hearing in Honolulu. 
It was fun to get off a plane and go to a prison in Hawaii, 
which was my Sunday afternoon. I flew out there all night, and 
then went into a housing project, and it was quite a dramatic 
program that they had had in the housing project. They had 
police officers in the housing project who lived--or actually 
had offices in all of the units, and a great cleanup effort. Is 
that going on here?
    Mr. O'Malley. Yes, sir. We are probably leading the Nation 
in terms of our use of HOPE 6 funds to literally tear down 
projects and redesign them. But also on the security front, you 
know, one of the challenges we are faced with is how do we 
manage, direct, and make as effective as possible the housing 
authority police when you have a policy of trying to 
decentralize public housing.
    So one of the moves that we have is to develop a memorandum 
of understanding between our housing authority police and our 
police commissioner.
    Mr. Mica. And that is working effectively?
    Mr. O'Malley. It is starting to. We are only a couple 
months on the job, and there is a lot--it is like changing a 
tire on a rolling car, our reform of this police department. So 
we are working on a memorandum of understanding.
    From my personal experience, I can tell you--and the 
Congressmen can probably back me up--I have run into a lot more 
individuals on the street who are saying that they are being 
denied public housing because of drug distribution records. So 
I know that that is going into effect. And I think it is having 
an effect.
    You do not have the problems to the degree that they were 
even 4 years ago in our high-rise projects. And there has been 
some improvement there.
    Mr. Mica. Well, we will look at that also.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I just have a few questions. Again, I want to thank you all 
for being here. It is a tough schedule.
    I want to go to Mr. Mayor, and you, county executive, Faye 
Taxman, who is going to testify toward the end of this hearing, 
wrote a very compelling piece that--and she spends a lot of 
time talking about how we put people on probation a lot of 
times. But we don't give them the kind of supervision that they 
need.
    And it is her belief that if we really zero in more on that 
supervision, and, I mean, not just--she says it is sometimes 
referred to as a ``wait and see'' period as opposed to a ``get 
a person straightened out'' period. She believes that we could 
save a lot of resources and help a lot of people, and I just 
wondered what your opinions are on that. Is that a part of your 
plan?
    Mr. O'Malley. Yes. I haven't sat around and waited on 
enough VOP cases and had addicted clients. I think that there 
is a lot we can do to improve supervision. And one of the key 
components of that, I believe, is to get the judges out of it. 
I think you need to sign up people for graduated sanctions 
right up front. Those are the terms of probation.
    Right now, we have probation agents who are utterly 
overwhelmed, although the State is allocating more money so we 
can hire some more probation agents. But we have probation 
agents that have scores of people they are supposed to be 
supervising, and yet when those people relapse or start using 
again or get a subsequent offense, there is this wait and see, 
string it out, OK, four postponements later in the district 
court, 8 months down the road, then maybe we go back and see 
how we resolve this violation and probation. Huh-uh.
    What we need to do--if we really want people to supervise 
those who should be turning their lives around, what we need to 
do is give them the power to enforce those graduated sanctions. 
And I know that there are some legitimate constitutional 
concerns with that, but I don't think that any of it is 
insurmountable. And what we really need to do is get our judges 
out of the natural human habit of wanting to micromanage and 
personally review every VOP before a sanction is imposed.
    And I think people need to--if they are going to be given 
the break of a suspended sentence or probation before judgment, 
they need to agree up front to abide by certain conditions, and 
know that if they don't abide by those conditions then your 
penalty for coming off the first time is whatever--a weekend, 2 
weekends for a second offense. And it needs to be immediate, 
and it needs to happen right away.
    We just feed into the whole suspension of reality that is 
involved in drug addiction by letting these cases drag on 
forever without any penalty. It would be better not to have 
them supervised at all than to have them supervised and to do 
nothing at all.
    Mr. Cummings. Well, it is interesting that you said that, 
because Ms. Taxman--part of her theory is that you must have 
swift, graduated punishment when people don't do what they are 
supposed to do. And I just--I mean, and it--you mentioned 
recidivism and with regard to probation. What she notes in her 
report is that 35 percent of the people who end up in--well, in 
prisons are people who violate parole or probation.
    Unfortunately, what happens is that in the process of being 
on parole or being on probation, they don't have the 
supervision. And it is almost like you put them on a train for 
failure without giving them the support system.
    Mr. Ruppersberger. I think a lot of it has to do with the 
volume. I think if you would interview probation officers, 
parole officers, they will tell you that they have a job that 
is overwhelming, that they can't do the job because they don't 
have the resources, they have too many people that are there. 
And, consequently, you can't work with people, you can't deal 
with people who violate parole or probation.
    The four individuals who allegedly killed our police 
officer were all individuals going through that system. You can 
look at it over and over again. And I think a lot of it has to 
do with management--management at the top also--and where the 
priorities and moneys are going.
    We are lucky we have Stuart Simms. He is a hardworking 
individual who is a good manager. But he does not have the 
resources to do the job. And it is going to take millions and 
millions of dollars from the Federal, State, and local level to 
reevaluate where we are in our criminal justice system. And if 
there is an example that--we have to do it, it is right here in 
the State of Maryland in Baltimore City, based on what we have 
here and what is on the board.
    I would suggest that we look at what we need, that we go to 
the front line. You know, we sit sometimes as leaders and we 
don't go to the front line to hear what they really need to do 
the job. And I think it is important that we go to probation 
officers, parole officers, without threat that they are 
concerned about their job, and say, ``What do you need to do to 
do the job better? Where are the problems?'' And then we have 
to start there, and then we have to make the decision, as 
elected officials, where do we fund? Where are our priorities?
    In my opinion, we have got to reevaluate where we are in 
this whole criminal justice system, from juvenile to adult, or 
it is going to continue. From drug--you can't put everyone and 
warehouse them in jail because there are a lot of people that 
shouldn't be there. But yet you have to make that 
determination. When somebody does make a mistake, they have 
been given a chance, then you have to come on them swiftly and 
make a difference. And it just has to be, because those people 
are impacting our society every day.
    Mr. Cummings. I just have a few more questions. Mr. Mayor 
and county executive, one of the things that I have discovered 
in moving around the streets of Baltimore, and Baltimore 
County, is that there is a huge community of people who are 
recovering addicts. I mean, it is huge. And these are the 
people who work every day, who turn around--and part of their 
recovery is to turn around and help somebody else come out of 
recovery.
    As a matter of fact, you have got one sitting right behind 
you, Ricky Phaison, who like I said a little bit earlier is a 
recovering addict for over 13 years. And I guess what I wonder 
about is, how do we make sure--and you talked about it briefly, 
county executive, how do we make sure the treatment that we do 
give is effective? That is one of my biggest arguments with the 
Republicans. [Laughter.]
    But one of my biggest arguments is, that ``We don't want to 
throw money out there, and the money isn't working.'' I mean, 
it is not doing what they claim it is supposed to do. So how do 
we make sure that we get effective drug treatment? And I think 
all of us here don't want to just be spending money to spend 
it, but we want to make sure that whatever we do works.
    Mr. O'Malley. Right. We probably have, in the city of 
Baltimore, one of the--we are probably ahead of the rest of the 
country, believe it or not, when it comes to evaluating how 
many programs we have, how many slots we have, and how 
effective they are.
    Now, the problem with determining how effective some of 
these programs are depends on your definition of effective. You 
know, somebody is in treatment for a while. They are in for 6 
months or in for a year. They stop coming on a regular basis. 
Well, it is--the sort of tracking that all of us want to see is 
also expensive.
    But we actually have made some great strides, with help 
from the Able Foundation--one of our local foundations--and 
according to our health commissioner--may be blowing his own 
horn now--but according to our health commissioner, the only 
city that is better in terms of monitoring and promoting some 
sense of accountability for a drug treatment program is San 
Francisco.
    So we have gone--we have jumped through a lot of hoops at 
the State level, trying to convince our Lieutenant Governor and 
our Governor of the fact that we actually do know where the 
dollars go, we do know what works. And what works also depends 
on the person. You know, certain modality--some of the most 
effective programs in the city are those that don't involve any 
methadone at all. If their core is a spiritual element, the 
Government is very bad at administering.
    But I was at the Help Up Mission just yesterday--was it 
yesterday? Day before yesterday in our big spring cleanup. They 
have a lot of men who are really doing phenomenal things, have 
certainly overcome bigger challenges than I have ever faced and 
are turning it around. Of course, methadone is also what works 
for others.
    So what we need is not only a continuum of the modalities, 
but we also need to be better about wraparound services, 
accessing TANF moneys for job training and for transitional 
housing, and that is sort of the move that we are making now.
    But Dr. Beilenson can talk to you at great length about 
what we have, how we monitor it, and whether there may be a 
need to move from thinking in terms of slots to, instead, 
moving toward the notion of fee for service in some of these 
cases.
    Mr. Ruppersberger. A lot of it has to do with basic 
management, whether you are managing a criminal justice system 
or a public works department. What is your mission? What are 
your goals? And then you hire people to follow through with 
that.
    Now, the people that follow through need resources. In 
today's age, the technology, everybody should be in--there is a 
data base that can be followed. And then you analyze your 
results and the accountability of where it needs to go. And 
then you pick not a lot of different programs, you pick your 
basic priorities, in my opinion. Your priorities in this system 
are dealing with the children, dealing with families, dealing 
with hardened criminals, and then pulling all of that together.
    And then if these individuals are on probation or parole--
you know, we keep talking about probation and parole and being 
either soft or being hard, whatever. But the bottom line, when 
someone eventually gets out of the system on parole or 
probation, then there is no job training, or very little. So 
what is going to happen is there is going to be recidivism 
again.
    So how do we stop it? It is a system that goes from 
juvenile all the way through. And in each level we need 
funding, we need priority, we need good management, because in 
my opinion there has been a lot of mismanagement throughout the 
whole country, not just here. And I am not putting the blame--I 
will put blame on myself that--that anything that we do has to 
be managed well and be held accountable. The money has to be 
there.
    Mr. Cummings. Dutch, one of the things that you said, and 
then I have just got two points and then I am finished, the--
one thing we are going to hear about, the DTAP program up in 
Brooklyn, NY. And one of the things that they do is they work 
real hard with the business community to help people find jobs.
    And what they have been able to do, from what I understand, 
is to create a good reputation. The guys who enter and get the 
treatment, the supervision, the jobs, and do a good job, become 
almost a reference. The business community then comes to them 
and says, ``Look, we want a guy or a lady from the program, 
because we know that we have got good supervisor, they are 
trying to make their lives better.''
    And one of the things I noticed about this recovering 
community that we talked about a little bit earlier, Mr. Mayor, 
is that all of them have jobs. I am just wondering if that is a 
part of your program?
    Mr. Ruppersberger. A job is the best social program, in my 
opinion. But if you take an individual who gets out of jail, 
and this individual probably cannot be hired, say, at a fast 
food restaurant because he has a criminal record, or she has a 
criminal record. If we don't start focusing on that job, there 
is no place for these individuals to go but to go back where 
they were before.
    But it has to come together. There needs to be funding and 
reevaluation, and there needs to be more accountability. We 
have a lot of well-meaning people out there, but there are a 
lot of programs that aren't working. Is there an accountability 
of this--of these programs? I don't know.
    Mr. O'Malley. There are also programs that are, and the 
ones that work best are the ones that have a spiritual 
component. Sister Gwenette Proctor--I mean, the men that she 
works with have performed miracles in their own lives, turning 
them around. And you are right. They have jobs. And before they 
have jobs they have--there is something that clicks. In the 
most successful of these programs, it is not so much the 
modality as it is the mentality of the person that is looking 
to change.
    But there is nothing compassionate about a criminal justice 
system that imposes suspended sentence after suspended 
sentence, that has so-called supervised probation where only 
half of the people referred for drug treatment as a condition 
of their probation ever get into it, where if there is a 
relapse it takes 30 to 90 days even to get a warrant for that 
person. We need to tighten up all around.
    A lot of people cry out for help, and the criminal behavior 
is their means of doing that. And we are just not there to 
tighten up and to provide the sort of reinforcement that they 
need. So----
    Mr. Cummings. Will there come a point when we say, or have 
you said to the business community, ``Look, if we are able to 
do this, to pull this off and get treatment, will you help us 
and get people jobs?''
    Mr. O'Malley. Yes, we can say that. But, I mean, the very 
fact that we notice that they have jobs I think shows that the 
market is there. We are about to launch a big summer jobs 
program because we are not getting a lot of Federal stand-alone 
dollars for that. Just thought I would slip that in.
    Mr. Cummings. Yes, please do. [Laughter.]
    Mr. O'Malley. Thought I would slip that in. So we are going 
to be doing a radiothon and a telethon to get summer jobs for 
our young people. But the business community is always in a 
desperate search for dependable workers, especially in our 
city. It is a big economic disincentive to have so many people 
addicted to drugs.
    So I think these programs, Congressman, start to speak for 
themselves. I don't think the problem so much is the business 
community willing to take on these things. I think if we 
tighten up our act on the enforcement front, and on the court 
front, I think that we will be able to drive a lot more people 
into those programs that work. And I think they create, as you 
say, their own sort of references just by the success stories 
that come out of them.
    Mr. Cummings. Well, I wanted to tell you both that your 
testimony has yielded two very positive things, if not more. 
One, the chairman said, we are going to look at HIDTA, and also 
at this flow of the funds. One of the things that we have been 
able to do, not only in this subcommittee, but in the last 
subcommittee that we shared as ranking member and chairman, is 
that we were able to move some things very quickly.
    Mr. O'Malley. That is great.
    Mr. Cummings. And so we want to thank you for being here.
    Mr. Ruppersberger. Thank you. And just with respect to 
HIDTA, I think if you talk to my chief of police and 
Commissioner Daniel, who deal with it every day, so that we can 
work together--as a former prosecutor, I used to see that 
different agencies would have jealousies. But I have seen in 
the last couple of years more teamwork.
    And in this hostage situation that has just had our whole 
community seized, we had Federal agencies, we had State 
agencies, we had jurisdictions from all over, and it took all 
of that to do what we had to do. So I think we are going in the 
right direction. But I don't think the mayor and I at this 
point have enough knowledge on every day operations so that we 
can comment one way or another with respect to that.
    Mr. Cummings. Thanks.
    Mr. O'Malley. Thank you.
    Mr. Mica. Well, I want to thank both of our witnesses for 
being with us today. I hope if we do nothing else the rest of 
the year, Mr. Cummings, that we are able to do something to 
impact the figures that are on that chart over there. Those are 
multiplied, unfortunately, just in 10 years I have been in--
around Congress by probably 3,000 dead citizens of Baltimore, 
most of them probably minority young males, whose great 
potential of lives are snuffed out and destroyed.
    Something has to be done, and I am so pleased to hear 
administration chief executive officers of this locale 
committed to hopefully working together, maybe taking some new 
approaches, and find out what we can do to make this a success.
    I am also pleased to welcome a gentleman from Maryland, Mr. 
Cardin. Welcome to our subcommittee, and we are so pleased to 
be in your State in this local community looking at a very 
serious problem.
    While we still have these two witnesses, did you want to 
make a statement for the record? Mr. Cardin, you are 
recognized.
    Mr. Cardin. Well, thank you, Chairman Mica. Thank you very 
much for being here in Baltimore. I thank my colleague, 
Congressman Cummings, for all of his leadership, particularly 
on these drug treatment issues.
    Let me just acknowledge, you have our two leaders here with 
Mayor O'Malley and County Executive Ruppersberger. The nice 
thing is that we not only have outstanding leaders in Baltimore 
City and Baltimore County, but they work together recognizing 
that the problems that we confront know no geographical 
boundary. And we just very much appreciate their commitment to 
working with our communities so that we can improve the safety 
and health of the people in Baltimore. And thank you for 
bringing the hearing here to Baltimore.
    Mr. Mica. Thank you for joining us today.
    Again, I thank each of our first two witnesses, and this 
panel is excused at this time.
    Mr. O'Malley. Thank you, Mr. Chairman.
    Mr. Ruppersberger. Thank you.
    Mr. Mica. I would like to call our second panel this 
morning. The second panel consists of the Honorable Thomas E. 
Noel, who is associate judge for the Circuit Court for 
Baltimore City; Ms. Anne Swern, deputy district attorney for 
Kings County, NY; Mr. Ronald Daniel, police commissioner; Mr. 
Stuart Simms, secretary of the Maryland Department of Public 
Safety and Correction Services; Mr. Peter Beilenson, 
commissioner of the Baltimore Department of Public Health; Ms. 
Renee Robinson, she is involved in treatment and correctional 
justice as treatment/criminal justice coordinator with the 
Baltimore/Washington HIDTA; Mr. George McCann, he is executive 
director of the Baltimore Addict Referral and Counseling 
Center.
    As I indicated at the opening, this is an investigations 
and oversight subcommittee of Congress. In just a moment, I 
will swear you in. If you have any lengthy statements, which 
you would like to be made part of the record, we will be glad 
to take them, and upon request enter them into the record, or 
additional background charts, materials.
    We will run a little clock here on the timer, which will 
allow you to summarize any lengthy remarks you may have, and 
then we will put the entire statement in the record, and, 
again, material that may be pertinent to today's hearing.
    With that, if I could ask all of our witnesses to please 
stand. Raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative.
    We have got one stray back here. Sir? Have I recognized 
this gentleman? Could you identify yourself for the record?
    Judge Johnson. I am Judge Ken Johnson. I was invited to 
testify, and I asked the person who heads up Drug Court to 
testify in my stead. I am just here to observe.
    Mr. Mica. Thank you, Your Honor. We are pleased to have 
you, and also you have to be sworn, too, for the record, in 
case we need to ask or refer questions to you.
    With those comments, I am pleased to recognize, at this 
point, the Honorable Thomas E. Noel. He is the associate judge 
of the Circuit Court for Baltimore City. Welcome, sir, and you 
are recognized. You may have to pull that up as close as you 
can.

  STATEMENTS OF HON. THOMAS E. NOEL, ASSOCIATE JUDGE, CIRCUIT 
COURT FOR BALTIMORE CITY; ANNE SWERN, DEPUTY DISTRICT ATTORNEY, 
   KINGS COUNTY, NY; RON DANIEL, POLICE COMMISSIONER; STUART 
  SIMMS, SECRETARY, MARYLAND DEPARTMENT OF PUBLIC SAFETY AND 
CORRECTIONAL SERVICES; PETER BEILENSON, COMMISSIONER, BALTIMORE 
DEPARTMENT OF PUBLIC HEALTH; RENEE ROBINSON, TREATMENT/CRIMINAL 
  JUSTICE COORDINATOR, BALTIMORE/WASHINGTON HIDTA; AND GEORGE 
   McCANN, EXECUTIVE DIRECTOR, BALTIMORE ADDICT REFERRAL AND 
                       COUNSELING CENTER

    Judge Noel. I will keep my voice up.
    Mr. Mica. Great. Thank you.
    Judge Noel. Good morning, Mr. Chair, Mr. Cummings, Mr. 
Cardin. It is good to see all of you, and thank all of you so 
much for inviting me and coming to Baltimore.
    I wanted to acknowledge Judge Kenneth L. Johnson. He and I 
collaborated on the paper that I submitted, and some years ago, 
in 1992, he began efforts to open our eyes to how devastating 
the drug problem in Baltimore City had become.
    My comments will primarily focus on Baltimore City, the 
illegal narcotics impact, and our treatment efforts. I have 
recently sat for 3 years in our Drug Felony Court, and that is 
a real penalty. And I have also presided over one of our drug 
treatment courts for an 18-month period, which proved to be 
truly one of the most educational and enlightening experiences 
I have had as a judge. Sometimes we almost felt as if we were 
taking off the robes and acting as social workers.
    I have also served as a liaison between Baltimore's Circuit 
Court and District Court regarding the drug treatment program. 
There is no doubt that the illegal narcotics epidemic has 
affected all of us to some extent, either directly or 
indirectly, and I must say it has truly affected me directly. I 
have family members that have succumbed to this addiction.
    This epidemic has dealt a severe blow to the city, the 
State, as well as the entire country. It is now time to openly 
and honestly face the reality of where our city stands and the 
degree of this epidemic. It is important to understand the 
impact of this problem.
    By 1996, drug use in Baltimore had soared over the last 
several years to the extent that the city was actually in 
danger of becoming the drug capital of the Nation. The drug 
abuse warning network--and I would like to submit that report 
as an exhibit--is a survey of reported drug episodes in 
emergency rooms throughout 21 major American cities.
    Baltimore had the highest number of heroin and cocaine 
episodes in any of these cities in 1994, and the second highest 
number for heroin and highest number for cocaine in 1995. In 
1995, emergency room visits in Baltimore were 12 times more 
likely to involve heroin than the national average.
    Baltimore had more than twice the heroin-related emergency 
episodes per capita than New York City, and more than twice the 
cocaine-related emergency room episodes for either Detroit or 
Miami. In 1998, Baltimore was only the sixth highest rated city 
of heroin episodes and the eighth for cocaine.
    The chairman had indicated figures somewhat higher than 
mine, but Maryland's Alcohol and Drug Abuse Administration 
estimated, in 1994, that an astonishing 9 percent of the city 
residents, or close to 62,000 of our residents, actually needed 
drug treatment. A more conservative number is--using national 
standards, place the number around 44,000.
    As I indicated in the paper, this epidemic has had a 
disastrous impact on the fiber of this city. From the human 
factor, this cancer has devastated generations. Rarely does a 
week pass without the loss of life from drug-related activity, 
AIDS, murder, overdose, and so forth. Families are destroyed, 
loved ones are at odds with one another, and the list goes on.
    This sudden explosion of drug-related issues has had a 
major impact on our court system also. In 1993, our typical 
felony caseload in the Baltimore City Circuit Court was about 
3,300 defendants. By 1998, this number had exploded to close to 
8,500, mostly black males.
    Last week, I took the liberty to determine the number of 
individuals being held at our pretrial detention services, and 
3,200 defendants were being held, 2,900 of them being black.
    Easily two-thirds of the cases in our criminal system 
handling felonies are narcotic cases, either indicted or 
charged through criminal information, through the Narcotics 
Division. Now, this explosion in our dockets has attributed to 
many of the problems of our court system that the media has 
focused on. Obviously, the courts and support agencies did not 
expand proportionately to address the problem.
    Baltimore City contains roughly 14 percent of the State's 
population, but accounts for 64 percent of the new prison 
commitments. And to correct one misconception--when I found 
this information, I was somewhat surprised. But the Department 
of Justice reports that six times as many homicides and four 
times as many assaults and one and one-half times as many 
robberies are committed due to the psychopharmacologic 
influence of drugs as are committed to obtain money for drugs.
    This problem has inundated our court system to the extent 
that we now have four full-time felony drug courts operating 
handling exclusively drug cases. Effective drug treatment must 
now be seriously considered in addressing this dilemma, as many 
now are beginning to admit. The goal of treatment must be to 
intervene effectively in an individual's addiction, to stop 
both the drug use and the collateral behaviors harmful to the 
individuals in this community.
    Treatment must consist of educating and counseling to alter 
thinking and attitudes. In March 1994, the drug treatment court 
began to effectively counter this problem.
    Another exhibit that should be included--in Baltimore City 
we now have 467 defendants in the Circuit Court, and in the 
District Court 271 defendants, participating in our drug 
treatment program. The program has proven very successful for 
those who have been involved.
    The recidivist rate is significantly lower than for those 
on standard probation. Seventy-seven percent of the graduates 
were arrest-free as of June 1998. The program consists of 
active monitoring and treatment. When a defendant goes into 
this program initially, we hope that the defendant is not 
employed and has all free time, because the first 4 to 6 weeks 
of the program are extremely rigorous, with urinalysis, 
treatment, and counseling. This program also has a job 
component built in once the defendant evolves through the 
program.
    The average age of the participant in this program is 36 
years of age. I have found that the older defendant is more 
amenable to treatment than many of the younger individuals. And 
I find that most of them just have to hit rock bottom before 
they are actually willing to consider treatment seriously.
    Now, the gender ratio is 58.1 percent male and 41.9 percent 
female. Now, drug treatment can also be cost effective. The 
average daily cost of incarceration is $56.65. And that is 
annually over $20,000. The average cost of those involved in 
our drug treatment program is $10 a day, which averages out to 
just over $4,000.
    Participants in this program, the only alternative--for 
most of the participants, the only other alternative would be 
incarceration, because most of them have such significant 
records because most of the defendants we have have long-
standing, long-term addiction problems, and their records 
accurately reflect that. They have been--and you can look at a 
defendant's record and realize if it is an addiction record, 
because of the thefts, the shopliftings, and the continuous use 
of drugs.
    As one graduate told me, the program is not going to work 
until the participant wants a life change. This is why I feel 
the successful participant is usually the older individual.
    Our society must develop a means to make the addict realize 
the necessity to change. This will only be accomplished by our 
efforts to educate. We must recognize the actual health 
problems addiction presents and expand effective treatment.
    Now, to some extent, the success of our program has caused 
us many problems because as of January we had to stop accepting 
defendants in the program because we ran out of funding, and, 
fortunately, another program gave us outpatient treatment slots 
but no inpatient residential slots.
    We review this monthly in an effort to try to resume 
admission into the program because of its success. And I must 
admit the first time I went into drug court, I was not 
optimistic. I had real reservations about those that could--
whether or not an individual could change. But I have seen 
many, many individuals who have changed.
    One defendant comes to see me regularly, and now he has 
gotten his--whatever the license is required, to drive tractor-
trailers, and he drives nationally now. And this individual 
usually comes to our drug court graduations, and our next 
graduation is April 28th, the Circuit Court, and I would invite 
all of you to attend.
    To effectively combat this drug epidemic, law enforcement 
will also have to broaden its perspective and rearrange some 
priorities. When reviewing this problem, we must not only look 
at it from the perspective of the volume of illegal narcotics 
in the community, we must also begin to focus on the money 
generated from the sales.
    Am I running out of time?
    Mr. Mica. You could begin to conclude.
    Judge Noel. The average dealer earns one-tenth of the 
moneys or funds generated from drug sales, and where does this 
balance go? Tracking the money may ultimately lead us to those 
in control. Our past course of following the narcotics has yet 
to prove successful. All branches of Government, the clergy, 
law enforcement, as well as those working in the area of 
academics, are holding a meaningful dialog on the alternatives 
to the past. A strategy is necessary to effect change because 
this problem is having a devastating effect on our city.
    Mr. Chairman, thank you.
    [The prepared statement of Judge Noel follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.024
    
    [GRAPHIC] [TIFF OMITTED] T8775.025
    
    [GRAPHIC] [TIFF OMITTED] T8775.026
    
    [GRAPHIC] [TIFF OMITTED] T8775.027
    
    [GRAPHIC] [TIFF OMITTED] T8775.028
    
    [GRAPHIC] [TIFF OMITTED] T8775.029
    
    [GRAPHIC] [TIFF OMITTED] T8775.030
    
    [GRAPHIC] [TIFF OMITTED] T8775.031
    
    [GRAPHIC] [TIFF OMITTED] T8775.032
    
    [GRAPHIC] [TIFF OMITTED] T8775.033
    
    [GRAPHIC] [TIFF OMITTED] T8775.034
    
    [GRAPHIC] [TIFF OMITTED] T8775.035
    
    [GRAPHIC] [TIFF OMITTED] T8775.036
    
    [GRAPHIC] [TIFF OMITTED] T8775.037
    
    [GRAPHIC] [TIFF OMITTED] T8775.038
    
    [GRAPHIC] [TIFF OMITTED] T8775.039
    
    [GRAPHIC] [TIFF OMITTED] T8775.040
    
    [GRAPHIC] [TIFF OMITTED] T8775.041
    
    [GRAPHIC] [TIFF OMITTED] T8775.042
    
    Mr. Mica. Thank you for your testimony. We will ask 
questions after we have heard from all of the panelists.
    I would now like to recognize Mr. Ronald Daniel, who is the 
police commissioner.
    Mr. Daniel. Chairman Mica, Congressman Cardin, thank you 
for your kind invitation to participate today.
    As a law enforcement officer, I enjoy arresting people 
involved in the drug trade. It is my job. But it pains me when 
I talk to so many individuals who are addicted to drugs, who 
want and seek treatment, and it is not available for them. Many 
police officers, particularly ones who develop informants and 
sources of information, talk to people who want to try to get 
out of their problem. A lot of them are bright, decent, 
hardworking people.
    When you watch a drug dealer operate, if they just took 
that energy and just did something else, they could be very 
productive citizens. And coming up in Baltimore--you know, I 
grew up in this city, and so many of my childhood friends got 
involved with drugs. Some of my relatives have the same 
problems. Even people who grew up in the same households, one 
child goes one way, another goes another way. It happens all 
the time.
    I think that if there were more treatment opportunities--I 
have worked with a program called ``hot spots'' for the past 2 
years, which is a program sponsored to give parolees and 
probationers enhanced supervision by reducing the caseload in 
heavy crime areas of the city. And when I was going out with 
them on field interviews and talking to so many addicts, a lot 
of them weren't doing what they were supposed to. And the 
ones--again, I saw significant numbers of people wanting 
treatment and being told, ``You have to wait 30 or 45 days just 
to be screened to get into a treatment program.''
    And with an addict, you know, when they make that decision 
they want to try to turn things around, you have got to have 
some type of immediate response to help them. Otherwise, you 
simply lose them. They are just back in the same environment 
they were in before. A lot of times an arrest situation could 
be the factor that triggers it. But if we can't offer them some 
assistance immediately, you know, it doesn't do us any good.
    Without question, there is a connection between drugs and 
crime, especially violent crime in Baltimore. We have 
significant numbers of open air drug markets in this city. The 
mayor has committed, and I am committed, to shutting down 10 of 
them within 6 months. We have pledged to do that, and then we 
are going to identify 20 more open air drug markets within the 
next year.
    These are the kinds of things and aggressive law 
enforcement action that we are going to take. Beyond the 
enforcement action regarding shutting down the open air drug 
markets, we have been working with the Health Department, the 
Department of Social Services, Department of Public Works, to 
improve the quality of life in the surrounding neighborhoods.
    And we are not going to leave the neighborhoods or the 
areas until the problem goes away. So unlike some enforcement 
actions, where you come in, raid, and then leave, and the 
neighborhood reverts back, we are going to take steps so that 
that doesn't happen. And that is a little difference here for 
us.
    I was going to talk a little bit about the dollar figure 
with addicts, but that was spoken about before. But the fact 
that addicts steal $100 a day to get $10 for cocaine, or a hit 
of cocaine, or heroin in this city, means when you multiply 
that by their needs and the number of addicts that we have in 
this city, that is why people's homes are broken into. That is 
why people get robbed. That is why cars are broken into down in 
the Inner Harbor, to feed and fuel this drug trade.
    In this city, we also have some significant--you heard 
about it--suburbanites coming into Baltimore to buy drugs. We 
do something called reverse stings here, where police officers 
pose as drug dealers, and we target areas where we can get 
people from out of the city who come in. And a couple of weeks 
ago we ran an operation over in the southwest part of the city, 
and we asked the people, ``Why did you come here? What led you 
to Baltimore?''
    One gentleman was from southern Pennsylvania, and he told 
us that he had gotten the directions for this particular drug 
corner written on a 7-11 wall in Pennsylvania. And the reason 
that we have such high purity, low cost, and significant 
numbers of drug markets in this city, which is one of the 
reasons why we have this large drug problem. Also, quite 
frankly, we have had prior enforcement action of the drug trade 
that wasn't what it was supposed to be.
    You asked about HIDTA. I met with the local HIDTA officials 
a couple of weeks ago, got a briefing. HIDTA is good for us, 
and I thank you for their support. We have underutilized HIDTA 
here. We have not kept up with our commitment for HIDTA. You 
know, most law enforcement agencies commit to having some of 
their own people, and we withdrew those people without 
explanation to HIDTA. I have already taken care of that 
problem, and I think HIDTA will say that we are cooperating 
much better than we had.
    HIDTA helps us a lot. They have excellent crime analysis 
capabilities, criminal intelligence capabilities, and, of 
course, they have some sophisticated equipment that we use. And 
they are posed to tackle and take on some of our heaviest drug 
organizations, and we are extremely appreciative.
    Heroin is the primary drug of choice in Baltimore, followed 
by cocaine and marijuana. I was surprised about the resurgence 
of marijuana with regard to violent crimes. In my old 
neighborhood, in West Baltimore, marijuana is the only drug 
sold on that corner. And I was surprised to see the violence 
shootings, killings, significant numbers of arrests, and so 
marijuana, cocaine, and heroin are some of the significant 
problems for us in this city.
    Drugs are moved through this city every way imaginable. 
Primarily we get most of our drugs from New York. It is still a 
source city. Trains, cars, and we do interdiction exercises at 
most of these places, but it is difficult to stem the tides.
    What we intend to do is to try to shut down as many open 
air drug markets that we can, because we think that that 
directly affects the violence in the city, and we are going to 
work as hard as we can on stabilizing neighborhoods and getting 
people to feel good about themselves, to move back into the 
city, because we are significantly losing some of our tax base. 
Citizens deserve to be safer than they are right now.
    You asked the question about why, and about policies here. 
Our police officers have often been confused about policies of 
the leadership in the city, what direction they should take, do 
they want us to make drug arrests or not, what are they saying 
about drugs. There is no confusion any more. We are going to be 
aggressive with drug enforcement in the city. We have to be. We 
have a horrendous murder rate. We have got 64 murders so far 
this year, many of them--at least 40 to 60--are probably drug 
related.
    We have had some significant problems investigating crimes 
because of failed policies in the past, and have taken 
corrective action for that. We feel that we should turn things 
around. We certainly appreciate your assistance. We appreciate 
your coming here, listening to us. But we do have a significant 
problem in Baltimore.
    Mr. Mica. Thank you, Commissioner Daniel.
    We will now hear from Dr. Peter Beilenson, commissioner of 
the Baltimore Department of Public Health. You are recognized, 
sir.
    Dr. Beilenson. Thank you very much, Mr. Chairman, and 
Congresspeople. Well, you have heard very eloquently from 
several people now about what the problems are, and I think you 
will find that we are an unusual jurisdiction in that most of 
the people you have been hearing from have criminal justice 
backgrounds. And you will be hearing from Secretary Simms 
shortly.
    And in few, if any, other jurisdictions, can you find that 
public health and criminal justice officials agree completely 
that (a) you need to have some type of criminal justice 
activity on the violent, drug-related offenders, but you also 
clearly need more treatment, both voluntarily and through the 
courts. And I think you hear this loud and clear from the 
mayor, from the county executive, from our police commissioner. 
And I assume you will hear it also from Secretary Simms. I 
don't want to speak for him.
    We have done a lot in this city over the last several years 
to increase drug treatment. Along with San Francisco, we are 
the only city that I know of that has doubled drug treatment. 
Most of that has been through city resources and foundation 
dollars that we have raised.
    In answer to your earlier question, our block grant, at 
least until this past year, has been static--the State-Federal 
block grant--for several years. And the only increase we had 
recently was to increase salaries for some of our treatment 
providers because the counselors are woefully underpaid.
    Even still, with doubling treatment availability in the 
city, we are serving only about 18,000 to 20,000 of the 55,000 
or so addicts in this city. I would just point out that that 
chart is not right. In 1950, we didn't have 300 heroin addicts 
in Baltimore. We had tens of thousands. So it has not 
increased, whatever that is, 3,800-fold, or whatever.
    Clearly, we have a major problem. We have about 55,000 
addicts, as Commissioner Daniel was mentioning. The primary 
drug of choice is heroin about 70 percent of the time. However, 
most of our addicted individuals in the city are polysubstance 
users. They use heroin and cocaine, maybe marijuana as well, 
alcohol, tobacco. So it is a serious problem.
    Our proposal is very simple. You asked the mayor earlier I 
think does his proposal include things like jobs, and 
Congressman Cummings was talking about that. It has been in the 
paper--I don't expect that Congressman Mica has read this, but 
I know that our two congressional representatives certainly 
have. We have a proposal in to the Governor for $25 million. 
Just so you know, our general--where we are coming from, about 
$30 million is spent on drug treatment in Baltimore City each 
year.
    The crime costs, as Commissioner Daniel was referring to, 
are $2 to $3 billion a year; $50 to $75 a day habit times 
55,000 addicts times 365 days comes to about $1\1/2\ billion. 
But people get on the street, for what they--you can't sell 
what you steal on the street on a one-to-one basis. So the 
bottom line is $2 to $3 billion in crime each year.
    What we have asked for is $25 million to be able to expand 
treatment so that we will be able to have people who are either 
required by the courts in whatever way that happens, through 
drug court or on parole and probation, or referred directly in 
from the streets, self-referrals, because they have hit bottom 
and are ready for treatment, to be able to have whatever 
modality that would serve them best within 24 hours. So you 
have this immediate treatment, as Commissioner Daniel was 
talking about--the importance of that.
    But it is not enough just to get people clean. It is not 
that difficult to get people clean. And if you want to ask 
questions later, I have a lot of our statistics here from 
Baltimore, our performance measures of our treatment programs. 
The key is to keep them clean. And the way to keep them clean 
is, as Congressman Cummings was implying, are wraparound 
services--kind of a silly term for very important things.
    So our $25 million proposal included enough treatment slots 
to provide the appropriate type of treatment for everybody who 
needs it or is required to go into treatment in Baltimore City 
within 24 hours; plus onsite housing services, so we can refer 
people to appropriate housing; job training and placement. And 
there is a strive program in Baltimore, which you may want to 
ask about, that has worked very well at getting addicted 
individuals who are recovering into jobs.
    Babysitting and day care services--crucial for the moms and 
more and more a lot of dads who have custody of their kids who 
can't go to drug treatment during the day if they can't find 
someone to watch their children. And mental health and medical 
services. All of these are in the $25 million proposal. And as 
the mayor has said, he has met several times with the Governor 
and now the Lieutenant Governor, and so far we are not getting 
the $25 million.
    It is a tiny amount of money in a huge State budget. And 
when you look at the incredible cost to the State of Maryland 
of these $2 to $3 billion in crime costs--and that is city cost 
alone. It doesn't include the Baltimore County crimes that are 
being committed by city residents. We think it would be money 
extremely well spent.
    I would be happy when you ask questions--I know you are 
concerned, Congressman Mica, about the needle exchange program.
We have excellent statistics on that. And if you want to ask 
about the performance measures we use here in the city in our 
treatment programs to show that they do work, I would be happy 
to answer them as well.
    [The prepared statement of Dr. Beilenson follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.043
    
    [GRAPHIC] [TIFF OMITTED] T8775.044
    
    Mr. Mica. Thank you. I would like to recognize now Mr. 
Stuart Simms, who is the secretary of the Maryland Department 
of Public Safety and Correctional Services. You are recognized, 
sir.
    Mr. Simms. Good morning, Chairman. Good morning, 
Congressman Cummings. Good morning, ladies and gentlemen. I am 
Stuart Simms, secretary, Department of Public Safety and 
Correctional Services. We operate the prisons throughout the 
State, of which there are 26, also the Division of Parole and 
Probation, as well as the local jail facilities. And so we 
operate the Baltimore City Detention Facility as well.
    I will try to move quickly through these remarks. I will 
submit the prepared remarks for your review, but very quickly I 
want to thank Congressman Cummings. His interest in this issue 
has been consistent throughout. As you may know, he had a 
substantial role in development of a study on African-American 
males by this State, which focuses particularly on the racial 
imbalance in our institutions. I have used it as a principle 
starting point to broaden educational services within our 
current system.
    You can look at the ACA, American Correctional Association, 
review, which points out Maryland as being one of those States 
that has a progressive educational system.
    I also want to express my thanks to the Congress for their 
early support of the correctional options amendments to the 
Crime Control Act of 1990. That act enables our State agency to 
be the State agency which funds the bulk of drug court, along 
with the State Department of Health and Mental Hygiene, which 
funds most of the substance abuse treatment services that have 
been discussed and will be discussed here today.
    I also wanted to indicate, with respect to your interest 
about HIDTA, you are going to hear from Ms. Robinson. HIDTA has 
been of invaluable assistance certainly on the law enforcement 
side. I am familiar with that because I was the former elected 
prosecutor for Baltimore City for two terms, as well as a 
former Federal prosecutor.
    And they have been extremely vital, both on the law 
enforcement side and on the treatment side as well. Indeed, one 
of our former directors of parole and probation served as 
treatment chairman for several years.
    I also wanted to indicate there are two things that I think 
we have done as a State agency. The first fundamental principle 
is that basically treatment has to be viewed as a crime 
reduction strategy. Second, that the public safety agencies 
cannot solely implement after-care substance abuse services. We 
have done that in partnership with the local Department of 
Health. We have done that in substantial partnership with the 
State Department of Health and Mental Hygiene. Secretary 
Georges Benjamin was here. However, I know representatives of 
the State Alcohol and Drug Abuse Administration are here, and 
they have participated significantly in the local service 
delivery issue.
    I want to point out, as has been said, I think it would be 
great to get the $25 million that Dr. Beilenson just discussed. 
We are moving forward as an agency to expand, I think, our 
service by expanding the number of parole and probation agents, 
as well as our services. You must understand also that there 
are State legislators who are certainly interested in the 
returns that they are getting on these dollars.
    And so at the same time that they are being appropriated, 
both from State and Federal sources, local and State are asking 
for results. I am pleased to report that HIDTA has been an 
important link in providing those results. And as you will hear 
from later, both from Ms. Robinson and from Dr. Taxman, your 
funding of HIDTA has elevated the whole delivery and monitoring 
system to show our results. And that has been a key issue.
    There are three basic and interrelated approaches which 
comprise the balance of our service delivery, and I want to 
sketch those very quickly for you. The first is the 
correctional options program I just discussed. That began back 
in 1994, and in 1994 it was a direct response to unprecedented 
growth in the State's prison population, which had doubled 
between 1987 and 1997.
    Basically, the program targets offenders whose criminality 
is due principally to substance abuse problems. Those entering 
the programs are screened to determine severity of their 
addiction, with the appropriate instruments, and we rule out 
any person who has been convicted or charged with a serious 
felony.
    The offenders are often required to participate in 
mandatory drug testing, outpatient drug treatment, job 
counseling, and those who comply with the conditions may be 
placed in less stringent levels of supervision. And offenders 
who do not comply may be placed in more stringent levels of 
supervision and may be returned to State prison in special 
programs, such as a regimented offender treatment center, which 
is institutionally based.
    Interesting components of the program include intensive 
supervision units, day reporting centers, which we are having 
problems locating incidentally, community resource 
coordinators, and a urine testing lab. We run a huge urine 
testing lab in East Baltimore, and it tests over 10,000 
offenders a year.
    Currently, there are 3,000 offenders in our correctional 
office's program locally, and about 400 of those are 
institutional, who are going back and forth as a sanction of 
sorts.
    A study was conducted of this particular facet of our 
program and offering, and we found that there was a 30 percent 
difference in the rate of return versus regular DOC releases. 
We found that 50 percent of the people in programs are less 
likely to commit new offenses. We found--or I should say the 
National Center for Crime Delinquency, which did the study, 
found that there was a $50 million cost avoidance in prison 
construction and a $13 million cost avoidance in operating 
costs. In summary, the low recidivism rate and fiscal savings 
supported our conclusion that the program was cost effective. 
The second approach is drug treatment court that the judge just 
talked about, utilizing a partnership with the judiciary and 
prosecutor's office. I did see the DTAP program under--I 
Charles Hynes, who is a prosecutor up there, and I know John 
O'Hare, who was a prosecutor in Detroit.
    We looked at the program, looked at the program facets. We 
utilized that partnership with the State Drug and Alcohol Abuse 
Administration, as well as the City Health Department, as well 
as the city prosecutor's office and the local public offender's 
office, to feature expedited case handling, intensive drug 
supervision, with periodic drug testing and mandatory drug 
treatment.
    And it may be pointed out by other witnesses today, a 
University of Maryland official, Dr. Denise Gotferson, has done 
a preliminary analysis, and certainly the program has proved to 
be effective. Note from what Judge Noel indicated, the program 
has about 700 folks in it. And it is primarily focused for 
individuals who are usually about above 30 and have a heroin 
background.
    The second approach is distinguished from the third basic 
approach that we use called ``break the cycle'' where we focus 
on a younger offender who potentially is more violent and more 
volatile. And in 1998, the legislation did fund about roughly 
$3 million to fund that program in seven jurisdictions.
    The key approach to this is utilizing, as I said, the very 
funding that you made available through HIDTA, a program called 
HATTS, which is our Automated Treatment and Tracking System, 
because you need to know the outcomes on individuals and where 
they went, what happened to them, and what their rate of 
recidivism was or repeat offense was.
    This program relies on all of the other facets that I have 
just mentioned, the drug testing, and monitoring, but it relies 
on followup with agents of the Division of Parole and Probation 
to ensure that the offenders attend urinalysis testing.
    We haven't done any outcome study, yet. The program is 
relatively new, but some of the preliminary data, which I am 
sure Dr. Taxman will highlight in our discussion, was a typical 
offender is male, between 21 and 29, as opposed to a 36-year 
old; 23 percent decrease in the number of rearrests; a decline 
in drug use of 53 percent; and a decrease in the number of 
people who failed to appear for urinalysis testing as we 
developed this particular program.
    We think these combined strategies and approach are very 
fruitful. They have to be continued and built upon. There are 
some additional factors I think that you need in order to 
sustain significant drug prevention and alternatives to 
incarceration programs. The first is a successful drug 
treatment delivery system.
    Again, I salute my partners in the State health system, Dr. 
Benjamin and also Dr. Beilenson here. You will hear a little 
bit later about the Baltimore Substance Abuse System, BSAS. 
There is a representative of that organization here, which is a 
public-private partnership, to try to work with the providers 
and get people into treatment.
    Second, you need community service. You need community 
service grants, whether that is from State, local, or Federal 
Government.
    And, third, I think--and something that this Congress 
should think about--is appropriating dollars for sentencing 
guideline organizations, of which there is one in the State of 
Maryland, to look at developing local treatment options and 
alternatives to incarceration.
    Three things I would like to recommend to you--the 
continuing funding of the residential substance abuse treatment 
program. This Department receives dollars from the Federal 
Government to treat offenders behind bars. We do not treat 
enough of them. Any program broadening would be helpful.
    Second, expanding funding in technical assistance for 
transitional programs. You have heard here today that 
transitional programming, including those components of day 
care, after care, and other aspects, need to be offered from a 
Division of Parole and Probation or a State correctional 
perspective. That is not our core competency. Therefore, job 
referrals and other aspects that we do do, we should be 
referring them to professionals who do that on a full-time 
basis.
    And, last, I think you have a clear opportunity--Maryland 
has one of the lowest referral rates of women to prison. And 
although that is a growing population nationally, we think 
because they are ``smarter'' than men, you have a clear 
opportunity, if you fund specific programs related to women, 
that we can develop in scale and score some big opportunities.
    And so if you take nothing else from this hearing from me 
today, I think it is an incredible opportunity, I think, to 
specifically design and tailor programs related to women 
involved in substance abuse who primarily at all do not need to 
be in an incarcerative situation.
    I thank you for the opportunity to testify and look forward 
to your questions.
    [The prepared statement of Mr. Simms follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.045
    
    [GRAPHIC] [TIFF OMITTED] T8775.046
    
    [GRAPHIC] [TIFF OMITTED] T8775.047
    
    [GRAPHIC] [TIFF OMITTED] T8775.048
    
    [GRAPHIC] [TIFF OMITTED] T8775.049
    
    [GRAPHIC] [TIFF OMITTED] T8775.050
    
    [GRAPHIC] [TIFF OMITTED] T8775.051
    
    Mr. Mica. Thank you, and we will now recognize Ms. Renee 
Robinson, who is the treatment/criminal justice coordinator for 
Baltimore/Washington, HIDTA. You are recognized.
    Ms. Robinson. Good morning, Mr. Chairman and Congressman 
Cummings. I would like to thank everyone for the opportunity to 
speak on the Washington/Baltimore HIDTA. I thank my 
distinguished colleagues for their positive comments of 
support, and I ask that the committee indulge my fluctuations 
in voice. Today is the day that my allergies decided that they 
would attack me, but I will proceed as best I can.
    You have heard a lot about the Washington/Baltimore HIDTA, 
and I represent specifically, as Congressman Mica mentioned, 
the treatment/criminal justice component. That initiative is 
comprised of 12 jurisdictions across the Maryland and 
Washington, DC area.
    The Washington/Baltimore HIDTA is considered somewhat of a 
prototype because it is one of the only HIDTAs across the 
country that has a treatment, criminal justice, and a 
prevention component. I would like to share with you also that 
the primary goal of that initiative is to reduce the demand for 
drugs for the hard core drug addicted offender population.
    We recognize that the demand reduction approach and the 
criminal justice supervision and treatment interventions for 
this population are effective tools. By improving outcomes for 
hard core offenders, changes can be expected in their substance 
abusing consumption as well as their criminal behaviors.
    The second goal is to improve treatment services for the 
hard core offender population. The objective of this goal is to 
address enhancing and developing the continuum of care and 
wraparound services that my colleagues have mentioned 
previously, and using HIDTA funds to provide for one part of 
that continuum.
    Both treatment interventions and sanctions are incorporated 
into this process and expanding the use of community resources 
in addressing critical gaps in services.
    The third goal aims to improve communications by developing 
regional and local management information systems. Dr. Simms 
mentioned the HATTS system. An objective of HATTS is to create 
an automated system for both treatment and criminal justice 
systems in each jurisdictions to case manage automatically and 
appropriately services for offenders who are involved in both 
systems, so that both will have access to progress or lack 
thereof of those offenders while they are involved in those 
systems.
    This automation will allow for prompt and appropriate 
information dissemination and sharing across these systems, and 
within jurisdictions within the region. The cornerstone of the 
HIDTA model is the development of a seamless system in the 
jurisdiction, and that was mentioned earlier this morning, too. 
The seamless system is defined as having service delivery links 
across criminal justice and treatment agencies, together with 
umbrella policies and procedures.
    And that is a very, very critical piece because there is a 
misnomer, I believe, that exists within the community, the 
criminal justice community, as well as the treatment community, 
that there is a system. There is not a system per se, but there 
are separate agencies that have separate functions that don't 
always work together collaboratively in order to manage the 
offender while they are effectively under supervision in those 
respective agencies.
    They don't always communicate with one another effectively, 
so establishing those links between those systems, and 
establishing communication across those systems, is what 
ensures accountability for those offenders as they move through 
the service continuum. If we are not talking to one another, we 
are not allowing these offenders opportunities to know up front 
what is expected of them while they are involved in the 
treatment system, and while they are involved in the 
supervision system. We are creating gaps for them to wiggle 
between.
    We need to close those gaps if we are going to be effective 
in developing systems, and if we are going to be effective in 
increasing the likelihood of success and increasing the 
outcomes for these offenders.
    Agencies who are involved in the HIDTA continuum make 
decisions based on memorandums of agreement, whereby the 
responsibilities are outlined by each agency, and they are 
signed off on. There is no miscommunication between these 
agencies as to what is expected, what role each of them will 
play, and which role each of them are responsible for as the 
offender goes respectively through that system.
    This mix increases coordination between these agencies and 
reduces duplication of services, and that is critically 
important. We all know that there is a resource pool that is 
dwindling. There is a resource pool that does not meet the need 
of that population that we serve, so it makes absolutely no 
sense that we are duplicating services.
    What HIDTA tries to do is to bring together all of the 
players involved and make these decisions up front, so that we 
can best expend the resources as we can.
    Finally, agencies must define how these entities are going 
to be integrated in order to meet the tasks and the service 
functions in this delivery system.
    The other set of policies that are required for an 
effective seamless system has already been mentioned earlier 
this morning, and that is the development of graduated 
sanctions. Graduated sanctions are critical in ensuring that 
the offender is held accountable while they are involved in the 
system, so that the wiggle room that I mentioned earlier is 
closed.
    That is how I believe the recidivism rates continue to 
escalate throughout the criminal justice system in the manner 
that it does, because we have these large gaps where they are 
just in limbo, and the system has not all the time set up 
adequate mechanisms to address the offenses once they occur. 
The offenders get the opinion that they are not going to be 
held accountable.
    In a previous life, I worked in the Virginia Department of 
Corrections, and I was the program director of the largest 
substance abuse prison facility at the time in the country. And 
on numerous opportunities I have spoken with the offenders, and 
one of the things that they always shared with me is, ``Ms. 
Robinson, no one ever told me what I needed to do. No one ever 
said to me--or if I did something wrong, no one came back to me 
and said that this was going to be the response for that.''
    It is critical that jurisdictions come together and develop 
the set of graduated sanctions, so that the offenders, when 
they first come into the system, are specifically told what it 
is that is expected of them, and what is going to happen to 
them in the event that they are not performing at the levels 
that we expect that they should.
    Excuse me. My voice is fading.
    The development also of drug testing policies is critical 
because we need to know that with the interventions that we are 
utilizing that they are not outwardly complying but still 
using, and drug testing is a critical component in ensuring 
that they are adhering to their sanction schedule, that they 
are adhering to their supervision schedule, that they are 
adhering to their treatment expectations, and, most 
importantly, that they are not using drugs anymore.
    I would like to also, in closing with my comments, mention 
that the Washington-Baltimore HIDTA has received level funding 
for the treatment/criminal justice initiative. I think that in 
order for us to continue to assist the jurisdictions involved 
in our project that we need to account for the lack of funding 
that the jurisdictions are facing in expanding the services for 
the number of offenders that continually are coming through 
their system.
    HIDTA does not provide absolute funding for any of the 
jurisdictions. What we have allowed them to do is to utilize 
HIDTA moneys to augment existing gaps in their current system. 
And in doing so, there are a number of clients that are not 
being served with HIDTA funds for a number of reasons. Some of 
them do not meet the criteria for the HIDTA protocol, and there 
are such numbers involved in that system that we cannot serve 
all of--we cannot provide funding in those jurisdictions for 
the number of clients that may meet our criteria.
    So I would like to also close with that comment.
    [The prepared statement of Ms. Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.052
    
    [GRAPHIC] [TIFF OMITTED] T8775.053
    
    [GRAPHIC] [TIFF OMITTED] T8775.054
    
    [GRAPHIC] [TIFF OMITTED] T8775.055
    
    [GRAPHIC] [TIFF OMITTED] T8775.056
    
    [GRAPHIC] [TIFF OMITTED] T8775.057
    
    [GRAPHIC] [TIFF OMITTED] T8775.058
    
    [GRAPHIC] [TIFF OMITTED] T8775.059
    
    [GRAPHIC] [TIFF OMITTED] T8775.060
    
    [GRAPHIC] [TIFF OMITTED] T8775.061
    
    [GRAPHIC] [TIFF OMITTED] T8775.062
    
    [GRAPHIC] [TIFF OMITTED] T8775.063
    
    Mr. Mica. Thank you for your testimony.
    I would like to now recognize Mr. George McCann. He is the 
executive director of the Baltimore Addict Referral and 
Counseling Center.
    Mr. McCann. I would like to thank the chairman and 
Congressman Cummings for the opportunity to be here. My 
perspective is a little different. I am an executive director 
of a treatment program in Baltimore City, and I have been 
affiliated with that program since 1970. It was a program that 
was established to treat the criminal justice system.
    I am also a recovering alcoholic and drug addict. I have 
been a part of both systems. I have been incarcerated as many 
times as I have been in treatment. I say that not braggingly 
but to illustrate that we are dealing with illness here that 
has a relapse factor, and that many people do not get well the 
first time they are put in a treatment program.
    There is a dire need for multi-modalities of treatment, 
especially involved in the city. Prior to 1997, we were the 
central referral for Baltimore City programs, and our service 
was discontinued at that time because it was--the situation 
presented itself, it was more problems--I mean, more patients 
presenting themselves for treatment than there were treatment 
slots in the community.
    So people were being put on waiting lists, rearrested, and 
reincarcerated, and it was deemed that this service was no 
longer needed.
    However, we are now a part of this criminal justice 
initiative, drug court, break the cycle. And we, at our 
agency--I won't speak for the whole system--at our agency, it 
has caused extreme difficulties in operating an agency, in 
keeping the staff employed, in keeping clients in treatment, 
because they have put together a treatment--with break the 
cycle, with graduated sanctions, where you must comply, go to, 
and complete urinalysis during treatment.
    However, if you don't go, nothing happens. And as a result, 
when the people that come to us know that nothing happens, 
first of all, 50 percent of the people do not even show up for 
their first appointment at the treatment program. And when you 
inquire about that, we are told by a unit that that is not 
their job. Their job is to make the referral, and then it is 
so--what I am trying to say, is that hundreds of people are 
falling through the cracks, out there roaming the streets of 
Baltimore, continuing to commit crimes, use drugs, all because 
the system is broken.
    I mean, the concept makes sense to me. Had I not been 
coerced in my own experiences, I probably would not have 
entered treatment. That is the nature of the illness. You know, 
you don't wake up 1 day and say, ``I think I will run to a 
treatment program and get my life together.'' There is usually 
some force that pushes you in there.
    I have to tell you, had I been in the system today, I would 
probably either be in jail or be dead. The system is so 
overburdened--the treatment system that is. It has been since 
the Nixon administration. From that administration down, there 
has been a--year after year they have taken money out of the 
funds for substance abuse and alcohol treatment, continually.
    Whenever there is a shortfall, the history indicates to go 
to mental health, go to substance abuse, and take it there. As 
a result, we have lost social workers, psychiatrists, doctors, 
and many resource people that we had at one time when I was a 
part of the system, that allowed it to work that are no longer 
a part of that system.
    It is hard to--I have employment opportunities now. And I 
will tell you, it is hard to even hire people because for the 
salary you want--you want them to be a death and dying 
counselor. They have to be an employment counselor. They have 
to be a family counselor. They have to provide child care 
services. And that is what we are asked to do, and we can't do 
it.
    I think if we look at what is effective treatment, and 
Congressman Cummings alluded to it, if you look at the things 
that are effective for the recovering community, they basically 
have to deal with spiritual or 12-step programs. And I think it 
is worth mentioning that I think one of the reasons they are so 
effective is that they have a primary purpose.
    They are not to treat everything and everybody and do 
everything for everybody. What they are designed to do, and do 
do, is allow people to get clean and sober, allow them to have 
resources and to get jobs, allow them to put their families 
back together, and allow them to go into a treatment program 
and utilize the treatment services, because at that point they 
recognize they need other help.
    So there are a lot of things--I have submitted written 
testimony. I started using and abusing drugs when I was 13 
years old. And, you know, I am not proud of it, but that is 
what happened. I was caught up in the criminal justice system 
similar to what was spoken about here today. I would go away 
for a year, serve my time, I would--I had the same lifestyle in 
jail as I had outside. You know, I would deal, buy, and use 
drugs to stay high, in prison as well. It was like a city 
within a city.
    Anything that was available on the street was available in 
the institution. I would get out. I would stay out for about 6 
months. I would start drinking again, start using drugs. I 
would be caught back up in the system. Went back in.
    And it was just a continual cycle. I knew I was a drug 
addict. I knew I needed help. But I didn't know what kind of 
help I needed, but I kind of suspected I was not going to get 
it in jail. So I was a part of that revolving door they were 
talking about.
    I would like to close with this, because I can get lengthy 
sometimes and I try not to do that. One of the things that is 
very needed are treatment slots. OK? And I have to say, along 
with the treatment slots, they need agents on the Division of 
Parole and Probation.
    When I inquire as to why sanctions and why action is not 
taken for these people not following the plans that are set up 
for them, we are told things like there is not enough agents. I 
know there are not enough agents, but there are not enough drug 
counselors either.
    We have a treatment program located in Baltimore City that 
treats the sickest of the sick and the most needy of Baltimore 
City. And we deal with every kind of issue possible. One of the 
things I never hear anybody talk about is the client-counselor 
ratio. I mean, as a way to address funding sources, they say to 
the counselors, ``You have to see more people.'' So instead of 
seeing 20 people and being able to do a good, effective job, 
they want you to see 35 or 40 people. You know, so the soup 
gets so watered that the help is not really rendered to the 
degree that it can be.
    There needs to be residential treatment, graduated 
sanctions, a mechanism put in place--there was a mechanism in 
place prior to this break the cycle initiative where we went 
from operating at 20 percent above capacity to operating at 40 
percent below capacity. And that was when the agents could 
refer themselves. Now they set up a little network here, chose 
a gatekeeper, and you have got to go through the gate and jump 
through all of the loops, and ultimately, you get a referral to 
a treatment program. If you go, fine; and if you don't go, also 
fine.
    So, you know, the system is obviously broken. I have a 
commitment to do what I can, to try and make it work. I think 
conceptually it is a good system. Both parties need to be at 
the table--criminal justice and treatment. But neither agency 
has the resources or manpower needed to do a complete job.
    [The prepared statement of Mr. McCann follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.064
    
    [GRAPHIC] [TIFF OMITTED] T8775.065
    
    [GRAPHIC] [TIFF OMITTED] T8775.066
    
    [GRAPHIC] [TIFF OMITTED] T8775.067
    
    Mr. Mica. Thank you.
    I would like to now recognize Ms. Anne Swern. She is the 
deputy district attorney, and she is coming to us today from 
Kings County, NY. I think she will talk about the DTAP program, 
for which we have had previous testimony in Congress. Also, our 
panel has visited the program in New York. Welcome, and you are 
recognized.
    Ms. Swern. Thank you, Congressman Mica. Thank you, 
Congressman Cummings, for inviting me to Baltimore. I am here 
on behalf of District Attorney Charles J. Hynes to speak to you 
about drug treatment alternatives to prison, and substance 
abuse. With me is my colleague, Hillel Hoffman, who is woking 
on the legislative proposals with your committee.
    On the way over here, Hillel and I remarked to each other 
that it feels like Fort Green, Brooklyn, as we drove through 
Baltimore. I have seen and I have heard a lot about the 
similarities between Brooklyn and Baltimore as I sat and 
listened for the past several hours.
    Brooklyn is Kings County, NY, and it is one of the five 
counties in New York City. If it were a city, it would be the 
fourth largest in this Nation. It has a very ethnicly diverse 
population--30 percent foreign-born, and there are 2.3 million 
people living in Brooklyn.
    In Brooklyn, in 1999, we had over 30,000 drug arrests. Most 
of those were misdemeanor cases, although a substantial portion 
of them were felony cases as well. In 1990, District Attorney 
Hynes was elected to the position of DA, and in that year there 
were 765 homicides in our county.
    I am pleased to say that last year there were fewer than 
300 homicides in our county, and I think some of the strategies 
that District Attorney Hynes has employed, and some of the 
strategies of the police department, have helped us bring our 
homicide rate down. There is still much more that we can do, 
though.
    One of the programs that District Attorney Hynes is most 
proud of is the Drug Treatment Alternative to Prison Program, 
also know as DTAP. He started DTAP in 1990, recognizing and 
targeting drug addicted predicate felony offenders who were 
destined for prison.
    In New York, you may know that we have some of toughest 
drug laws in the country. Those laws have actually been in 
existence since 1973, and they are commonly called the 
Rockefeller Drug Laws. There are mandatory prison sentences for 
second-time felony offenders accused of possessing or selling 
drugs. Typically, that defendant--somebody who has been 
previously convicted of a felony is facing a mandatory minimum 
sentence of 4\1/2\ to 9 years in prison.
    Now, even when assistant district attorneys engage in 
substantial plea bargaining, the average defendant facing that 
second felony offense on a non-violent felony receives 
sentences of 2 to 4 years in State prison or 3 to 6. 
Recognizing the senselessness of continuing to incarcerate non-
violent addicts, the District Attorney proposed the Drug 
Treatment Alternative to Prison Program, which targeted 
predicate felons who were non-violent who were selling drugs to 
support their habit, and obviously possessing drugs. As long as 
the defendants were non-violent and not major traffickers, we 
accepted the addicts into the program.
    Recently we have expanded DTAP to include people not only 
charged with selling and possessing drugs, but other types of 
crimes as well as long as they are not violent crimes. 
Typically, we have included larcenies and other types of crimes 
that contribute to or are caused by the drug addiction.
    Now, when the District Attorney started this program, it 
wasn't politically popular to take the mandatory prison bound 
defendants and place them in a drug treatment program. But he 
felt if he could deal with this difficult population, then 
maybe we could make some in-roads into the revolving door 
aspect of the criminal justice system.
    As it has turned out, predicate felons are one of the 
easiest to treat populations of defendants. We have learned, 
and we have seen through our drug court and DTAP, that actually 
targeting people who face a substantial amount of time in 
prison contributes enormously to the success of the treatment 
outcomes.
    Now, what we do in DTAP is we require the defendant to take 
a plea to the felony charge, then we defer the sentence for the 
period of time that the defendant is in a therapeutic 
community, in a residential drug treatment program, and at the 
end of that time, if the defendant successfully completes the 
program--which includes the job component, and gets housing 
that is appropriate to continue the defendant to be drug-free 
and crime-free--we will allow the defendant to withdraw that 
plea and end up with a dismissal of the charges. So for the 
instant case, the defendant will have no criminal record.
    If the defendant fails in treatment, then the defendant is 
returned back to court to be sentenced on the original plea.
    DTAP also recognizes a system of rewards and sanctions, as 
prosecutors have learned that recovery is a process. And so we 
recognize that there may be minor relapses, there may be other 
matters on the road to recovery that we as prosecutors have 
learned to address in an appropriate way, and that includes 
this system of rewards and sanctions, intermediate prison 
sentences, and things like that.
    As we have become more adept at dealing with the 
intricacies of addiction, we actually find that our retention 
rate improves, and our recidivism rate is lower. So recognizing 
what the treatment community has known for a long time has 
actually been successful in reducing crime for us.
    When we started with DTAP, we were hopeful that it posed no 
risk to public safety. And, in fact, we have demonstrated that 
that is true. Basically, the DTAP ``in prison'' recidivism rate 
is lower than that for the pretrial and in-prison recidivism 
rate for a comparison group.
    So, basically, while people are in treatment, they are 
actually committing fewer crimes than they would if they were 
sent to prison.
    Also, we looked at recidivism for the treatment graduates 
as opposed to the people who were eligible for the program but 
did not accept the program or were found ineligible for other 
reasons, and we found that our DTAP graduates, 3 years after 
receiving treatment, recidivated at a rate of 23 percent. In 
comparison, the people who were sent to prison for at least 2 
years, after 3 years of being released from prison recidivated 
at a rate of 47 percent. So basically by putting them into 
treatment we reduced their recidivism rate by half.
    Now, the other thing--the other reason that we know that 
DTAP poses very little risk to public safety is we employ a 
warrant enforcement team. The team consists of detectives hired 
by the Brooklyn DA's office who interview the defendants before 
we accept them into the program, to make sure that they have 
appropriate contacts, so should they leave treatment 
facilities, we can return them back to court to face sanctions 
for leaving.
    In fact, we have been able to return 96 percent of our 
defendants in a median time of 9 days, leaving virtually no 
opportunity to commit a new crime.
    The other measure of DTAP's success is the length of time 
we keep defendants in treatment. All of the literature suggests 
that the longer people stay in treatment, the more likely a 
successful outcome, meaning managing a drug-free and crime-free 
life.
    We started with two therapeutic communities, and now we 
have more than 11 therapeutic communities. The therapeutic 
communities in DTAP use use a social learning model that 
emphasizes a self-help approach and relies on program graduates 
to act as peer counselors, role models, and administrators. It 
uses 12-step approaches.
    We also, require our defendants who are prison-bound for at 
least 2 to 4 years to stay in treatment 15 to 24 months. And 
because it is a court-mandated program, in New York State the 
Government pays for treatment. As a result of staying for 
almost 2 years in treatment, the defendants not only become 
drug-free, they are given pro social skills that help them 
adapt to life after they leave the treatment facility.
    We have a 1-year retention rate of 66 percent, and that is 
far higher than other programs that are either not mandated or 
not run by effective monitors. Nearly 60 percent of our people 
are still in treatment or have graduated from treatment.
    After we changed the program slightly, we have raised the 
retention rate from 64 percent to 74 percent, so we expect that 
our overall retention rate will increase with the number of new 
graduates. We also note, that this is not because of the 
selection process, but people entering DTAP now are a little 
bit older and they were previously employed prior to entering 
DTAP. So we expect those numbers to actually increase over 
time.
    Congressman Cummings, I just want to reemphasize something 
you mentioned earlier. DTAP, at our own expense, has a job 
developer, a full-time job developer. Additionally, we have a 
Business Advisory Council, whom we meet with on a regular 
basis, to assess the community's needs for employment as well 
as our ability to service that employment.
    I think this strategy together provides a very effective 
tool for allowing our defendants to stay drug-free and crime-
free. We noted that 26 percent of our DTAP graduates were 
employed before they entered DTAP. Now we note proudly that 92 
percent of our employable graduates are working or are in a 
training program.
    We not only help them get their first job, we help them get 
every job. A lot of these jobs are seasonal employment. A lot 
of these jobs are transitional. And it is unrealistic to expect 
that the first job is the only job that the defendants will 
ever have.
    A very important tool that we have is this job developer, 
who allows us to keep in touch with our defendants, to support 
them after the case is over, after the case has been dismissed, 
to keep them in jobs, which is to my mind, and certainly to the 
District Attorney's mind, one of the key elements in keeping 
them drug-free and crime-free.
    I just want to point out that DTAP is highly cost-
effective. I see my time is up. We had 441 graduates of DTAP. 
Our graduates represent a cost saving to New York State of more 
than $16 million. Most of those cost savings are corrections 
cost savings. In New York, it costs about $82,000 to provide a 
slot for a defendant in both the city and State corrections 
system.
    By contrast, in New York it costs about $21,000 per year to 
treat them in a residential facility. The success of DTAP is 
demonstrated also by the law enforcement community's adoption 
of DTAP. Basically, our four city DAs and our special narcotics 
prosecutor, have all started DTAP, as well as many of the other 
upstate county DAs. We have been recognized by the Justice 
Department as one of the successful recipients of original 
Byrne funding, which supported DTAP for a period of time.
    We are also the subject of a 5-year NIDA study. That study 
has been extended for another 2 years to continue to look at 
some of the post-treatment outcomes, cost effectiveness, the 
participants' perception of legal coercion, and other things 
that NIDA has found particularly helpful and instrumental in 
terms of their further study of substance abuse.
    The success of DTAP encouraged us to support our drug 
treatment court. We have had 1,600 people in our drug treatment 
court. They also have a tremendous retention rate. They have a 
tremendous success rate. They recently added a job development 
component, based on the success of DTAP, and we support our 
drug treatment court by sending a very experienced DA into it 
who has a lot of discretion to take the pleas and to divert 
people into treatment where it is warranted.
    I invite anybody who is in this room to come to us in 
Brooklyn to see what we do, and I thank you for inviting us 
here to Baltimore today.
    [Note.--The report entitled, ``DTAP, Drug Treatment 
Alternative-to-Prison Program Ninth Annual Report, October 15, 
1998 to October 14, 1999,'' may be found in subcommittee 
files.]
    [The prepared statements of Ms. Swern and Mr. Hynes 
follow:]

[GRAPHIC] [TIFF OMITTED] T8775.068

[GRAPHIC] [TIFF OMITTED] T8775.069

[GRAPHIC] [TIFF OMITTED] T8775.070

[GRAPHIC] [TIFF OMITTED] T8775.071

[GRAPHIC] [TIFF OMITTED] T8775.072

[GRAPHIC] [TIFF OMITTED] T8775.073

    Mr. Mica. Thank you, and I want to thank each of our 
witnesses on this panel. We will start with our first round of 
questions here.
    Commissioner Daniel, did I hear you correctly when you 
testified that I guess the city of Baltimore really wasn't 
participating actively with the HIDTA?
    Mr. Daniel. No, we participate. But we enter into an 
understanding with HIDTA. We had a commitment for a certain 
number of officers that was not sustained throughout the term 
of the agreement. And when that knowledge----
    Mr. Mica. What was the term of that agreement?
    Mr. Daniel. They usually run for a year at a time.
    Mr. Mica. So in the past, you are saying that the city did 
not keep its commitment to participate at the level that it 
agreed upon with the HIDTA?
    Mr. Daniel. That is correct.
    Mr. Mica. And your directive and policy from the mayor and 
the current council is to participate at a full level. Is that 
correct?
    Mr. Daniel. No, I didn't get a directive from them. I just 
did it. Basically, there was a need for us to have appropriate 
staffing levels in HIDTA. HIDTA gives us so much, we 
certainly--it is a small commitment in return.
    Mr. Mica. You testified one of the problems is that you are 
having difficulty getting the intelligence and information to 
go after some of these dealers?
    Mr. Daniel. No. I testified that HIDTA has exceedingly high 
criminal intelligence capabilities, and that we needed to use 
that capability to enhance our efforts in the city.
    Mr. Mica. I am sorry. Then you weren't able to utilize that 
in the past, is that the problem?
    Mr. Daniel. I don't think it was utilized in the past 
because we didn't make significant numbers of high-level drug 
cases in the city, but as many as we could and should be 
making, based on not using HIDTA. HIDTA was there. They have 
intelligence capabilities.
    Mr. Mica. Right. It has been there. It has also leveled at 
a fairly high level, $11.4 million I understand, which is one 
of the higher ones that I am aware of. But something seems 
wrong in the enforcement end.
    Now, the playground that the mayor referred to that was 
cleaned up----
    Mr. Daniel. Yes, sir.
    Mr. Mica [continuing]. That was through tough enforcement, 
a new enforcement initiative. Is that similar to the kind of 
activity you are going to go after in the open--you said you 
are going to close down 10 open air drug markets in the next 6 
months and go after 20 afterwards. Is that correct?
    Mr. Daniel. Yes, sir, that is correct.
    Mr. Mica. Why not go after all of them now?
    Mr. Daniel. We simply don't have enough police officers and 
support assistance----
    Mr. Mica. What would it take to close down drug trafficking 
in Baltimore? Is this something you can't handle because of 
lack of personnel, resources? What do we need?
    Mr. Daniel. We do have a personnel shortage in the police 
department currently.
    Mr. Mica. What would it take to close down all of the drug 
markets and go after the big drug traffickers here?
    Mr. Daniel. 500 additional police officers.
    Mr. Mica. 500 additional police officers.
    Mr. Daniel. To do it at one time, yes, sir.
    Mr. Mica. To do it at one time. What about Federal 
prosecution? Are these people--now, everywhere I have been they 
fear Federal prosecution more than they do State. States seem 
to be sort of a revolving door. I heard testimony over here 
that there is so much wiggle room, and the mayor described a 
situation where there--it could be weeks and months before they 
are heard, they are back out on the street, the problem 
continues.
    And those aren't decisions we make at the Federal level, as 
far as State and local prosecution. Those are decisions that 
are made here. It sounds like you have a very ineffective 
enforcement mechanism.
    And then I heard testimony from someone, I thought they 
said 50 percent of them don't even show up for their first 
treatment. Is that correct?
    Mr. Simms. That is correct.
    Mr. Mica. What is the problem?
    Mr. Simms. On the Federal end, if I might, Congressman----
    Mr. Mica. OK. The Federal end.
    Mr. Simms [continuing]. Linda Tagley, the U.S. Attorney, 
has devoted significant resources to going after Federal 
prosecution.
    Mr. Mica. Are prosecutions up here?
    Mr. Simms. Prosecutions are up.
    Mr. Mica. The last 4 or 5 years?
    Mr. Simms. Have been up consistently since the 1980's. I 
myself was involved in drug prosecutions of local cases in 
Federal court, basically. There are some concerns within the 
judiciary, obviously, of how much you do. The Federal 
Government here also has its own version. It, in effect, 
predated project exile with its own program called project 
disarm. And it is a program which the commissioner, myself, and 
other law enforcement agencies are also participating in.
    And so we don't lack for the fact that there are Federal 
cases being handled here. And with respect to the operational 
issues that was mentioned by the gentleman, there are----
    Mr. Mica. All right. For the record, I would like submitted 
the number of Federal prosecutions in the last 10 years, the 
record of those, and where we are. We need to see what it is 
going to take at the Federal level. You are telling me the 
Federal level is adequate. I am hearing that they don't have 
adequate resources at the State and local level.
    Why is the State of Maryland so reluctant to fund--to put 
additional resources into this area?
    Mr. Simms. It has appropriated additional resources. I 
think the question that we are grappling with now is the rate 
of that increase, as well as your colleagues at the State level 
asking questions about the returns that they are getting with 
respect to those investments.
    Mr. Mica. It sounds like there is a real problem even with 
the treatment programs that we do have in place, that we can't 
even get people to show up from the programs to--and I have 
heard people say they are not held accountable. I am taking 
phrases. That there is no--I mean, the program that I visited 
with Ms. Swern, and I visited one in Hawaii, I have been in 
California----
    Mr. Simms. Right.
    Mr. Mica [continuing]. Different programs, you don't show 
up, you don't participate, even in the drug courts, you are in 
the jail.
    Mr. Simms. Yes. Two things that are different here than a 
number of other jurisdictions. Baltimore City is a city unto 
itself. It has no county. And in Baltimore City, where I was a 
State prosecutor, as Mr. O'Malley said, there was no addition 
to prosecutorial resources for over 10 years.
    When I went to see Charles Hynes to talk about that 
program, Charles Hynes had the support of the Federal 
Government. And although it was somewhat controversial, he had 
some other political support. We had none. The State started 
the correctional options program. The State funds the 
prosecutors for drug court. The State funds Break the Cycle. 
The State takes the whole deal. And right now in Baltimore City 
the State funds it all. So the----
    Mr. Mica. Have you applied for any discretionary funds?
    Mr. Simms. Anything that is out there we go for. Anything 
that is out there we go for it. So what we are attempting to do 
at the State level, and what we did with a number of programs 
in the last 3 years, we ramped up very fast. In Break the 
Cycle, for example, we are almost up to 20,000 people over a 2-
year period. Very fast to try to throw them into the program.
    Did we have operational issues? Yes. Still have some. Did 
we have some successes? Yes, we have some. Did we have some 
operational difficulties with people showing up? Yes, we have 
some. And we are trying to mull through and cut through a 
number of those.
    Mr. Mica. It is interesting. Most of the attention today 
has focused on after somebody is an addict, after someone has 
probably committed many crimes to get into the system. It 
appears that there has been a fairly sizable gap in going after 
active drug dealers, people dealing in death on the streets.
    Somewhere, there is something missing. At least if you 
don't have the narcotics being dealt with on the streets, that 
is a pretty good alternative to incarceration. They are not 
dealing here in this venue, and these people are not getting 
drugs to start with.
    Mr. Simms. I think the piece that you saw missing is part 
of the piece that you heard the Deputy District Attorney talk 
about when she spoke about the involvement of detectives, and 
spoke about the involvement of capacity apparatus. And one of 
the issues that we are trying to move forward here is our 
ability to have the capacity to address all of the service 
issues related to all of these models.
    Mr. Mica. A lot of what has been talked about here is that 
people at the end of the spectrum that have committed crimes 
and are already drug addicts. They have $100-plus a day habit. 
Then we get them in the system, and the best I have heard today 
is that 50 percent may have a success ratio.
    I have heard that--the same thing I hear in other 
communities--the best programs are the faith-based or spiritual 
programs. They don't even qualify in most instances for Federal 
funds. Mr. Cummings and I have heard that testimony before.
    So I am concerned that we are manufacturing many of these 
people into a system that is failing. And you can keep adding 
more and more folks into it. You will never have enough beds. I 
mean, if we continue at the rate we are at, in 2050, there will 
be 10 percent of the population that won't be addicted in this 
town. We will never have enough beds at that continued rate.
    So there is something wrong with what is going on here, and 
I am trying to find out what pieces we are not helping with. I 
have heard from the State that, or at least the Federal aspect, 
that there is prosecution they are going after. I heard from 
the locals. I have questions about their participation and 
commitment in the past, not today.
    I have heard from the judicial branch that he is part of a 
system that is sort of regurgitating these folks out. I have 
heard from this lady over here that there is so much wiggle 
room, no one is held accountable. And then I have heard from 
this gentleman here that tells me 50 percent of them don't even 
show up for their first treatment session. There are problems 
here.
    Let me hear from the judge.
    Judge Noel. Mr. Chairman, we need to determine what 
programs we are talking about. The drug treatment program has 
proven to be quite effective. The problem is the funding for 
it, the lack of available spaces. We don't have a situation 
where people don't respond. In the drug treatment program, they 
do respond. They are held accountable, and sanctions are 
imposed regularly.
    This is a very proactive program, where the defendant comes 
before a judge on a routine scheduled basis, sometimes within 
every 2 to 3 weeks. Sanctions are imposed most frequently, and 
they are graduated. But it is usually at the discretion of the 
court.
    It is quite different than the other programs you are 
hearing about. We have almost begged the Governor for 
additional funding to expand the drug treatment court because 
this is the one program that has proven effective.
    Mr. Mica. Yes.
    Judge Noel. It is quite similar to the program in New York.
    Mr. Mica. Yes, Your Honor. My whole point is that you are 
manufacturing these people in this locale at a rate we cannot 
keep up with.
    Judge Noel. I agree.
    Mr. Mica. You will never keep up with it at this rate. If 
Mr. Beilenson is correct that it was from 10,000--I don't know 
what the number DEA gave us is--but we will take 10,000, and we 
are at 60,000 or 80,000. It has just been on a continual rise.
    You have a city with a crisis and we have got to stem that. 
I don't want to be sending them to you for an alternative to 
incarceration. That is where I am trying to stop it, before we 
get them into any of these programs down at this end. Not that 
I am against any of those programs. I want them to be in the 
most successful programs.
    Unfortunately, I am told by some constraints we work under 
that we can't even support those spiritual or faith-based 
programs, and we are trying to find a way to--because they do 
have a high rate of success. Most of the public programs I have 
seen, even the DTAP program, it does a good job, they are 
expensive, they are at the other end of the spectrum.
    And you testified, sir, too, that when they hit rock 
bottom, and they want a change in their life--I just heard this 
same thing on the West Coast and also in Hawaii, and I sat in 
the prisons with these guys, and most of them were older rather 
than younger. Most of them had spent--if they were 36 years, 
they had been 18 years either in jail or in and out of prisons 
at great expense.
    So we have got to have something--education. We have got to 
have something--an early diversion that works, and those things 
I don't--I don't see as readily available.
    The DTAP--I sat with folks, a heroin addict, his wife just 
had died from a heroin overdose. Most of them were--they had 
hit rock bottom, and we were pulling some of them out. That is 
very necessary. But there is a bigger part of this picture, and 
that is--and there are pieces to that missing in this community 
and across the country we need to fill in.
    Mr. Cummings, I have taken more than my time. Go ahead.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to just pick up where you left off. One of the 
things that has always concerned me is the question of how we 
prevent people from even getting in this process? I have told 
the Congress many times about the neighborhood that I live in, 
which is the neighborhood, by the way, Mr. Chairman, where that 
school is, the one that the mayor showed.
    And I was just wondering if you all had any comments on 
any--I mean, we are not just talking about--I am not just 
talking about young people. I mean, I think about the whole 
process of what the chairman was just talking about, how year 
after year these people are committing more and more crimes, 
that are hitting our communities harder.
    The interesting thing is, that what I find in my community 
is that it sort of feeds on itself. People who work hard every 
day--and you see it, Judge, I know. People who work hard every 
day, raise their families, go to church, the whole bit, they 
come home and their place is ransacked because somebody took 
some items that they are going to sell for about 5 percent of 
what they are worth.
    And, we have Judge Ken Johnson who brought this to my 
attention very early on.
    Do you have any comment on that, Judge? Why don't you 
move--they need to get--you need to get to a mic. If you can 
just pick it up, I guess that will work. He gave you his seat, 
so----
    Judge Johnson. Oh.
    Mr. Cummings. Thank you, sir.
    Judge Johnson. Thank you very much.
    Mr. Cummings. Judge, how long have you been on the bench?
    Judge Johnson. Eighteen years pretty soon. And I would just 
like to add I was a former Judge Advocate General's Corps 
[JAGC] officer in Southeast Asia with the United States Army 
for 3 years during the war. And then from there to the Justice 
Department, in President Lyndon Johnson's days, I headed up 
Alabama and Georgia and then to Baltimore. So I have been on 
the bench for about 18 years.
    And some time ago, June 21, 1992, I wrote a piece in the 
Sun paper that said the war on drugs is mainly eyewash, and for 
that I have been in trouble ever since for it. But it is true. 
We have to start following the money trail rather than the drug 
trail only. We should follow both. When you follow the drug 
trail, you are going to find a young, black, high school 
dropout. When you follow the money trail, you are going to find 
a banker, a lawyer, and the others.
    So we have to start looking at both, and we have to stop 
them from getting on drugs in the first place. Interdiction 
sure is fine, but the money should be reallocated wherein we 
have education. We have to have a job for this person. We must 
educate this person to keep him off of drugs in the first 
place, and that is where I have always stood, and that is where 
I stand now.
    It is a controversial position because there are billions 
of dollars out there, and you would be surprised at the people 
who are making this money. It is not this little black boy on 
the corner down here who pedals his bicycle down the East 
Coast, rides all the way across the Gulf of Mexico, across the 
Rio Grande, and he pedals back up to sell on Monroe and North. 
That is not the way to get here. We may as well face facts.
    What has happened is the press--and I must say the white 
press, and I don't mean to be racist. If I had a racist bone in 
my body, I would take it out and put this mic in it. But we 
must admit that the press, the white press, has fooled the 
public into thinking that the drug problem is a black problem 
when just the opposite is closer to the truth.
    Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.074
    
    Mr. Cummings. Thank you, Judge.
    Anybody else?
    Mr. Simms. I just wanted to say, Congressman Cummings, 
again, I wanted to thank you and the chairman because, again, 
with your funding, and what you made available to help us start 
correctional options through your work, correctional options, 
and the drug court, you answered part of the issues that were 
brought up by Dr. Taxman and people like Mark Kliman, who said 
there are three things that community corrections has to do--
the technology to monitor behavior that occurs outside your 
presence, the authority to impose rapid and predictable 
sanctions, and the resources to acquire and use the technology 
and administer the authority.
    We have answered two of those things, I think, with the 
support that you have given us. And what you hear today, and I 
think the Congressman was concerned about, is our--that last 
step, that last link is part of the capacity issue that we are 
struggling with at this point in time.
    Now, on the prevention issue that you asked, there is 
effort, both within the Health Department and a massive grant 
that they have received and the city of Baltimore is working 
on, called the Safe and Sound Campaign that you are familiar 
with, which is really a ground-level campaign to bring those 
who are causing difficulty within the community in, and to say, 
``Here are the resources. Here is what you need to do. We can't 
have this particular problem.''
    Now, that effort is less than a year old, and it is making 
and moving some things within the community. But it is that 
kind of educational community effort that is very important.
    The last piece is the efforts that you have done to 
continue to talk--to have people talk about the whole issue of 
restore through justice. That is, the community as a victim--
and to put that out in the community and to educate the 
community.
    We are trying to do that. We are trying to put together 
victim panels to go to institutions to educate people, to 
rethink people, so that it doesn't start in the first place. So 
I didn't want the Congressman to leave here today and think 
there is a dearth of things that aren't happening--things that 
aren't happening in the community on the prevention side. There 
are some things that are happening on the prevention side.
    Ms. Robinson. And, Chairman Mica, Congressman Cummings, I 
would like to address some I think misunderstanding about my 
comments. What I intended to say was that certainly there is 
wiggle room in the traditional system. What HIDTA tries to do 
with the jurisdictions that are involved in our system 
particularly, in Baltimore County and in Baltimore City, is to 
assist them in developing the capacity within those 
jurisdictions to address, through drug treatment sanctions, 
through the accountability factors, so that the wiggle room 
that I reference is closed.
    We provide them with technical assistance, and we have 
excellent outcomes that I have attached to my written testimony 
that attest to the effectiveness of the HIDTA model. But the 
HIDTA model only works in a small vacuum. What we would like to 
see happen is that that model is replicated across the system-
wide, not just in individual jurisdictions, because in order to 
effect change within these systems, we have got to come to a 
point where we recognize that certain pieces of it are non-
functional, certain pieces of it are not working together, 
certain pieces are not communicating well, bring all of those 
entities together and collaborate on a mechanism to address 
this problem.
    We have the knowledge, I believe, and we have the 
technology. What we are struggling with at this point, I 
believe, is the whole funding piece. And that is a critical 
piece. Once we begin to look at these issues from a systemic 
viewpoint, then we know what it is we need to do. We just need 
assistance in gaining funding to do what is required, because 
we have a lot of information on best practices.
    HIDTA has published again a recent study on the 
effectiveness of our model. We know what it is that we need to 
do. We know where we have struggled with operational issues. We 
are addressing those issues, but we need support and 
assistance.
    Mr. Cummings. Ms. Swern, one other thing, if you have 
worked with drug addicts at all. I had a brother-in-law who 
died about 2 years ago who was a drug addict, and he was 43 
years old and I would just watch him disintegrate.
    One of the things that you notice, and I think people like 
Ricky Phaison could tell us about this, when you talk to them, 
is that somebody who is on drugs appears as if you are not 
really talking to them. They look like them, but they are it is 
basically a ghost of their former selves.
    And what I have found in dealing with people who are on 
drugs, is that a lot of times they are not always honest. They 
will do almost anything to get their drug. And I think what 
happens to the business community--I mean, if I am--let us say, 
for example, I run some copying company or something, and I 
want to hire somebody.
    And I have got to have somebody who I can depend on to come 
to work, somebody who if I am not there I know all my receipts 
are going to be, you know, straight, and I know they are going 
to do what they say they are going to do. That is maybe not the 
person--and if I have got a choice between three or four 
people, and that is one of them, that person probably won't, 
you know, come to the top of my list.
    What I am trying to get at is, you know, when I listened to 
Mayor O'Malley, and we were talking a little bit earlier about 
jobs, because I do believe that is very important. How do you 
make sure in the DTAP program that--I mean, and I realize this 
is--the job piece apparently comes at the end. But still, it 
comes in the middle?
    But I am just wondering, how do you convince employers to 
participate and to hire folks?
    Ms. Swern. I think what you said earlier helps a lot. When 
employees have had successful graduates working there, they are 
the best public relations for DTAP.
    Also, our defendants, because they spend a substantial 
amount of time in a therapeutic community, they--we could 
basically vouch for the last 2 years of their life. Not only 
are they off drugs. That is--in a way--the easiest thing. The 
harder things are the social skills, all of the other things 
that we have kind of alluded to here that are being addressed 
in these therapeutic communities.
    Now, I come from a State that, relatively speaking, after 
listening here, is a little bit more rich in resources in terms 
of residential treatment beds. And we utilize them to the 
maximum capacity. And so what we do is we make sure DTAP 
participants spend 15 to 24 months in treatment.
    When defendants come into DTAP, about 80 percent of them 
say the reason they come in is to avoid jail or prison. They 
don't come in because they think they have hit rock bottom, to 
help their family and friends, to address any of that stuff. 
The No. 1 reason that they have given, by far and away, is 
prison or jail avoidance.
    Over time, and different amounts of time for different 
people--it could be the first month, it could be the 14th 
month--they decide, you know, maybe these things that all of 
the other peers are talking about, all of the others in the 
substance abuse community, makes sense. And then not only do we 
convince them that a drug-free life seems to be the best 
option, we provide them with options.
    We have constant feedback from our business community. When 
I speak to groups, frequently somebody at the end of the speech 
says, ``I have a job, one job.'' And I will go out myself and 
see the place where the job is. My job developer goes too--even 
for 1, because I know 1 job could lead to 5, that could lead to 
10.
    And the other thing is we do everything. It doesn't matter 
whether the job is 3 months or 3 years. We try to use every 
available resource to make sure that people get employed and 
stay employed, and they are our best spokespeople.
    Mr. Cummings. Judge Noel, when you see people coming into 
court, who have violated probation, or whatever, do they 
usually have jobs?
    Judge Noel. The typical----
    Mr. Cummings. With regard to drug situations.
    Judge Noel. The typical defendant in the drug treatment 
program is unemployed when they come in. We expect relapses. It 
would be unrealistic to expect, once they got into the program, 
that they would not relapse. Jobs usually come along.
    Also, I find that they relocate, and that seems to have 
quite an impact on the success rate. They have to move from 
that continuous negative environment before they will make 
changes, before they will want that change in their life.
    Typically, they do come in to avoid incarceration, 
obviously. But to stay in the program, and to go through the 
rigors of the program, they have got to want that for 
themselves.
    Mr. Cummings. Last but not least, one of the things that I 
know, just piggybacking on something you just said, when I was 
in the State legislature we had an after care program for 
juveniles in the boot camp system. And one of the things that 
we noticed is that the people who stopped hanging with the guys 
who sent them there did fine.
    But usually there were not a lot of options. That is the 
problem. Because they didn't--maybe they didn't have a job, and 
they sort of--they may have--said all of these wonderful things 
while they were in prison, and then when they got out, they had 
all of these high hopes.
    But then when they got out they couldn't find a job, and 
the next thing you know they were gravitating. They might do OK 
for a month or two, but then they gravitate right back to the 
corner, and the next thing you know they were back in prison.
    Judge Noel. That is why we expect the relapses. And it is 
typical in the program. Many defendants stay in our program for 
over 2 years when you consider the relapses before they 
ultimately become drug-free, and they have to remain drug-free 
for at least a year before they are even considered for 
graduation.
    Mr. Cummings. Finally, if there is something, commissioner, 
that you want from us, because we are trying--we are not here 
just for window dressing. We are trying to figure out how to 
help. What is at the top of your priority list, I mean, that we 
could do to help you help us?
    Mr. Daniel. I think just your interest today, this hearing, 
is helpful. It is helpful when we are fighting this battle and 
know that other people care. You know, I am new on this job, 
with about 3 months experience, and we are looking for some of 
the best practices, so that we can come back to you and say 
this works. That is what I am a firm believer in. You know, I 
want to make sure that you are confident that your money is 
being well spent, and that we can show you some types of 
results.
    I am looking forward to going to Chairman Mica's meeting to 
discuss matters dealing with HIDTA. I hope I get invited to 
that because I think that will be very helpful as well.
    Mr. Cummings. He just said you certainly will be. And I was 
just wondering, as we move forward in this process, I guess you 
would be willing to go to the mayor, to the business community, 
and to ask them to help us out with regard to the job piece. 
Would you?
    Mr. Daniel. Certainly we can do that. We are going to start 
a police foundation here, and we are going to ask 
businesspeople to support that foundation for other things that 
we don't want to ask Government for, for special projects and 
things like that as a funding source. So we are going to have 
an excellent relationship with the business community, and we 
certainly would be confident that we can help my co-workers up 
there with some of the other aspects of this thing that aren't 
necessarily police-related, like looking for jobs.
    But, you know, police officers do that with people that we 
encounter every day. You know, it is not organized, but we 
often are out there helping people, trying to find them jobs, 
going to businesses. Officers go in their own pockets and buy 
clothes for people to be able to go to an interview. I mean, 
those kinds of things happen all the time in the police 
department.
    Mr. Cummings. In answer to an earlier question, the 
chairman asked you what it would take to eliminate all of the 
drug corners, and you said 500 officers. One of the things that 
concerns me is that a lot of times, when I look at the folks on 
the corners, I wonder where they are going to go.
    In other words, because there are so many of them, and I 
know we push them here and we push them there. I am just 
wondering, what we would see, let us say if we had the 500 
officers.
    Mr. Daniel. OK.
    Mr. Cummings. Hypothetically.
    Mr. Daniel. I can tell you where they are going to go.
    Mr. Cummings. Where?
    Mr. Daniel. They are going to go to Baltimore County. They 
are going to go to Anne Arundel County. They are going to go to 
the surrounding jurisdictions, which is why we have the great 
collaboration that we now do with my counterparts.
    You know, I meet regularly with the Baltimore County police 
chief, and with the Anne Arundel County police chief, and with 
the State police superintendent. And we meet regularly because 
we know that we are tired of pushing this thing between 
borders, and we know that we are going to get more bang for the 
bucks if we work together and collaboratively. So no law 
enforcement has no turf battles at all.
    And, you know, we want to drive this problem that we have 
with open air drug markets completely out of the State, and 
where they go after that I can't answer.
    Mr. Cummings. Thank you.
    Ms. Robinson. I would like to take an opportunity to 
address that. One of the things that HIDTA has been doing is 
developing a cross-border initiative, that is bringing together 
the law enforcement community as well as the supervision 
community in Washington, DC, and Prince George's County. And 
that has been a very helpful process in where they are going to 
go. But there is a secondary piece to that.
    I mentioned that that was a law enforcement and a 
supervision liaison. That has not been inclusive of the 
treatment community. What is going to need to happen, if you 
really want to look at addressing that issue, is that the 
treatment slots that are allocated to Baltimore City and 
treated slots that are allocated to Baltimore County are going 
to have to be looked at very closely, because once you 
incarcerate those individuals then you summarily are also going 
to have to provide a level of treatment services and wraparound 
community-based services, so that once they complete the 
treatment regime and they go out into the community, that they 
get jobs, and that they are placed in a different environment 
for at least a period of time in order for them to integrate 
internally the new value system.
    I mean, she speaks very eloquently about the therapeutic 
community, and I worked for years in the therapeutic community. 
What you endeavor to do in that is to teach pro social values 
to these individuals. And it takes 2 years for those pro social 
values to be internalized. But if they are going back into the 
same environment, what you are looking at is a 6-month period 
and they are going to lose all of the benefits basically that 
they acquired while they were in treatment.
    We have got to provide opportunities for them to move to a 
different community, and that is a faith-based community, that 
could be AA, NA. I mean, there are support mechanisms that are 
existing in the community to assist them along their recovery 
path.
    Mr. Cummings. I don't want you to answer this now. I just 
want, maybe you can give us something in writing or contribute 
it to the HIDTA meeting that will be held. But you said 
something a little bit earlier about the fact that funds that 
HIDTA is now using to I guess supplement drug treatment in 
Baltimore City and Baltimore County, and elsewhere I guess, it 
then takes away from other things that you might want to do. Is 
that what you said?
    Ms. Robinson. No, no. No, no.
    Mr. Cummings. What did you say?
    Ms. Robinson. Once you--you asked the question, what would 
happen to these individuals----
    Mr. Cummings. No. I am going back to something you said a 
little bit earlier.
    Ms. Robinson. OK.
    Mr. Cummings. You were talking about the fact that you use 
HIDTA money with regard to treatment.
    Ms. Robinson. Yes.
    Mr. Cummings. And you said something to the effect of, we 
need to maybe look at that and see whether we are taking away 
from other things that you might want to use the money for, or 
other people.
    Ms. Robinson. No.
    Mr. Cummings. OK.
    Ms. Robinson. Each jurisdiction that is involved in the 
HIDTA projects has an opportunity to look--assess their own 
system, and they utilize HIDTA funds to augment gaps within 
those systems. So once they make that determination--and it is 
different in just about every jurisdiction that is involved in 
HIDTA--then that does conversely take resources away from other 
pursuits.
    Mr. Cummings. OK.
    Ms. Robinson. Because they could utilize that money in 
Baltimore County specifically. Their money is all utilized in 
drug treatment slots, and in Baltimore City it ranges from drug 
treatment to positions that are purchased with their money. I 
mean, they have----
    Mr. Cummings. Sure.
    Ms. Robinson [continuing]. Utilized it in very different 
ways.
    Mr. Cummings. Right. Thank you.
    Mr. Mica. Thank you, Mr. Cummings.
    And I want to thank each of the witnesses on this panel. It 
appears that there has been a slaughter going on in this 
community for the last decade or more. If it is on average 300 
dying, that is 2,500, 3,000 people have died in this slaughter. 
I have been in the Washington area, as I said, for about a 
decade, and I saw every night a slaughter going on there. It 
averages as many as 400 a year in our Nation's capital close 
by, which I guess is part of this HIDTA effort.
    We have had some success in bringing the deaths down in 
Washington. They have been fairly reduced. But in Baltimore we 
haven't seen that success, and we have got to stop that 
slaughter in some fashion.
    We have our jails full. The judge testified that it is 
imprisoning not only a record number, but also the ones that 
are suffering most are the minority population who are the 
victims of these murders, of the incarceration. And then we 
have a system that is failing them even at the end where they 
are cast into a community that doesn't have the jobs.
    Coming from the business community, I can tell you that any 
community that has the kinds of problems this community has 
experienced, I would not invest where you have rampant drugs, 
crime, murders. And so you have a perpetuation of a cycle of 
even when these folks come out, the judge said their best hope 
is to go someplace else, and that is their best success rate.
    Somehow this has all got to be turned around, and I am 
hoping working with the mayor, with the new commissioner, with 
the individuals who are here--the county executive, and all of 
those who have testified--and my colleague, Mr. Cummings, and 
others, that we can be a partner in turning this situation 
around.
    I guarantee you we will do everything possible. It may not 
have been possible before the beginning of this year, but I 
guarantee you we will give every effort to turning this around 
and working as a partner with you.
    With those comments, I will excuse this panel, and thank 
you again.
    I call our third and final panel. The third panel consists 
of Dr. Faye Taxman, who is a professor of criminology at the 
University of Maryland. The second witness on the panel is Mr. 
Ricky Phaison. He is a program participant in project excel. 
The other panelist on this third and final panel is Mr. Israel 
Cason. He is president of I Can't, We Can.
    I am pleased to welcome the three witnesses to our panel. 
Once again, I will reiterate that this is an investigations and 
oversight subcommittee of the U.S. House of Representatives. In 
that capacity, and with those responsibilities, we do swear in 
our witnesses for testimony.
    If you have any lengthy statements to be made part of the 
record, upon request to the subcommittee that will be included 
in the record.
    At this time, I will ask our three witnesses on this panel 
to please stand and be sworn. Raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. Again, 
I thank each of you for joining us. I will recognize first Dr. 
Faye Taxman, professor of criminology at the University of 
Maryland. Welcome, and you are recognized.

  STATEMENTS OF FAYE TAXMAN, Ph.D., PROFESSOR OF CRIMINOLOGY, 
  UNIVERSITY OF MARYLAND; RICKY PHAISON, PROGRAM PARTICIPANT, 
  PROJECT EXCEL; AND ISRAEL CASON, PRESIDENT, I CAN'T, WE CAN

    Ms. Taxman. Good afternoon. Thank you very much for 
inviting me to testify today, and I appreciate the opportunity, 
Congressman Mica and members of the subcommittee, to talk a 
little bit more about an issue that you have been discussing 
today which has to do with a redirection in national policy in 
terms of dealing with the problems of drugs and crime in our 
community.
    In particular, my interest is in terms of building more 
effective community correctional treatment and control programs 
that prevent criminal behavior and penetration into the 
criminal justice system. I think what you have seen today is 
the tragedy in a city like Baltimore where we have people with 
very lengthy criminal justice histories. And it affects them 
and their families and their children and their communities, 
and I think we have to reflect on how better to provide 
services to prevent all of these factors.
    If you look at what we have done over the last 30-somewhat 
years, is we have really focused on incarceration at the State, 
Federal, and local levels. We have built jails. We have built 
prisons. And in many States, including this State, we spend 
more money on incarceration than we spend on educating school-
age children. In my own community, we are currently building--I 
live down the road--a very large jail, once again, that is 
taking away needed resources for the school children. And I 
think that is part of the travesty that we feel.
    If you look at what we have done through RSAT at the 
Federal level and other crime control initiatives, we put money 
into programs in prisons and jails, which makes sense. But we 
haven't invested the same level of resources into the 
community-based programs, and there have been some minor 
modifications in RSAT which have allowed the programs to use 
like 10 percent of the funds in after care or continuing care 
in the community.
    But that does not really build the types of programs like 
DTAP or the drug courts or some of the longer term initiatives 
to really help people get themselves back on the right track. 
So I think we really have to look at how we fund things, and 
begin to look at where our priorities are.
    The other thing I would like to mention is this State and 
many States struggle with this notion that everything in the 
community has to be done at a cost containment or a cost 
reduction over incarceration. So while we are comfortable to 
spend $23,000 a year, or $85,000 a year in the State of New 
York, to incarcerate someone, we skirmish at the notion of 
spending $2,000 or $3,000 a year to put someone in a drug 
treatment program.
    I think that is a clear reflection of priorities that are 
mismatched in terms of where to get the most effective care for 
our community.
    So what I would like to do is basically talk about three 
points very quickly, because I know your time is short, and 
hope that you will consider from a Federal level to really 
start some national Federal initiatives to deal with people on 
community supervision, because I believe, as Congressman 
Cummings noted earlier, that I feel we can get the most 
effectiveness in terms of reducing crime and improving the 
quality of lives and communities by focusing on probation and 
parole services.
    My three points today which I would like--as part of some 
testimony that I entered in--are, first that incarceration has 
a limited impact. And, in fact, I think what we have done and 
the research literature has shown is that incarceration 
actually is no longer a deterrent to criminal behavior. And I 
will talk about that a little bit more.
    My second point, is that treatment is very effective, but 
some programs work better than others, and we need a system of 
care.
    And my third point, is that effective supervision is the 
key to reduced crime.
    On the first point about incarceration, we have seen 
generations of families that have been in prison and jail. What 
we have seen--and you can see this through a number of 
ethnographic studies--is that people are immune to prison and 
jail. It does not matter now. You can talk to most prison 
wardens, you can talk to most jail wardens, and they will tell 
you that people don't fear jail. And even kids don't fear jail 
as much as one would think.
    And I think we have to reflect on where we perceive jail to 
be a deterrent, it is no longer the deterrent. And that is--
that raises a number of questions in terms of a national 
priority of how to change that value system so people do fear 
periods of time away in incarceration facilities.
    Related to that is that in order to--from my perspective, 
to overturn that, is to really deal with the issue that we need 
to build better things within the community and the community 
framework. Repeatedly, we have over the past several--15 or 20 
years--built correctional programs in the community that mainly 
focus on controlling orientation. And when I say control I mean 
things like house arrest, electronic monitoring, drug testing 
only.
    But what we haven't done is given the people who get caught 
up in the criminal justice system the tools to help themselves. 
Now, we have heard discussion today about how people need to 
hit rock bottom, have to be motivated to want to change their 
lives. I take a slightly different position. I think that you 
can help people become motivated, and that we need to build 
treatment systems and correctional systems that include 
components of effective care, that will help people become 
motivating.
    There is a whole body of literature, scientific literature, 
on motivational readiness programs, cognitive behavioral 
restructuring programs, that really deal with building people's 
motivation to change their lives.
    Now, you can't deliver those services in a short period of 
time. You can't do that in 6 months or less. So what we need to 
do is we need to develop a treatment delivery system based upon 
the scientific principles of effective care, and those 
treatment delivery systems have to be for longer durations.
    You heard the judge talk about the drug court program being 
2 years in duration. You heard Ms. Swern talk about DTAP being 
2 years in duration. We can work within time periods if we are 
given the resources to do that, and right now people under 
treatment or under supervision are under supervision for 12 to 
24 months.
    We don't effectively use that whole period of time, but we 
could build programs that connect and walk people through 
stages of change, so they get the motivation to change their 
lives. You give them the skills and tools. You help them 
reorient their value system, and you have to deal with the 
criminogenic value system. And you help them in some of the 
areas of stabilization, which many people have talked about 
today in terms of jobs.
    I am not going to go over it, but I did provide for you 
some analysis that was done actually at the request of Congress 
in a report that was done by my department, the Department of 
Criminology and Criminal Justice on what works and what doesn't 
work. There are many programs that we fund that do not work. 
There are many programs that we don't fund that do work.
    And so I suggest that as you begin to look at providing 
scientifically based programs to help overcome these long-term 
problems, we focus on those programs that work. Those programs 
have some key principles. They provide programs of significant 
duration to change the behaviors of offenders. They utilize 
cognitive and behavioral approaches to provide consistent and 
effective techniques to assist offenders in learning how to 
assume accountability for their lives.
    They assure that these programs assist individuals in 
restructuring their lives. And they emphasize value systems, 
attacking the criminogenic traits and the ability to stabilize 
yourself in the community.
    Those multi-dimensions are very important. They encompass 
everything from helping people motivate change to helping 
people get more active in their community, whether that 
includes their faith community, family, or other support 
mechanisms that they may have. But I implore you to really look 
at the scientific literature, because over the last 15 years we 
have built a very nice base in order to really decide what 
works and what doesn't work. And we have to move away from the 
myths.
    A lot of people work on one person, that one war story here 
or there. But really focus on, you know, good, controlled 
studies.
    My last point today has to do with supervision. People 
commonly talk about probation as being a slap on the wrist. 
And, in fact, you know, to be more accurate, it probably is 
because most people who are on probation, not only in the State 
of Maryland but nationwide, are not supervised adequately. They 
have this ``wait and see'' period of self-destruction. And, 
unfortunately, most States' prison population is driven by the 
failures on probation and parole.
    So what we need to do is look at how to build effective 
supervision systems. And we right now have much like what law 
enforcement had about 30 years ago--a much more reactive stance 
to supervision. It used to be that law enforcement was reactive 
in terms of crime problems. That is what probation and parole 
is. So we can build different models of probation, and I think 
that there is a need at the Federal level to encourage that and 
to help States learn to turn around the problem.
    This is not just a problem in Maryland. I deal with about 
15 other States that are all grappling with how to deliver the 
best effective probation and parole services to control crime. 
In that end, we also know that there are key principles of what 
works under supervision.
    One is that we need to use that whole supervision period as 
an intervention period, not just a period of wait and see. We 
need to make sure that supervision agents learn how to use 
behavioral management techniques. Many people today have talked 
about accountability, through sanctions. I would also add a 
reward system, because we know from the psychological 
literature that most people react better to rewards than 
sanctions.
    But we need to have these principles of swiftness, 
certainty, and progressiveness, to address the problem 
behaviors of offenders. And these become the tools to help 
people restructure their lives.
    We need to ensure that the criminal justice system provides 
timely response to offender non-compliance. It is a major 
problem. It contributes to crime in the community, and it 
contributes to the offender's perception that the criminal 
justice system is a joke.
    And, finally, we need to incorporate effective treatment 
services throughout that whole period of supervision. Added 
together, these components can significantly reduce crime at a 
very minimal cost enhancement to current probation services.
    There were several examples today of programs that you have 
heard that employ little components of these programs. I think 
the challenge that Secretary Simms mentioned is, how do you go 
from running a program for several hundred people to dealing 
with the system? Because that is where the bottlenecks occur.
    I have been analyzing Baltimore City data for about the 
last 10 years, in terms of the criminal justice system, and the 
bottlenecks occur all the way from the intake in number of 
arrests through all of the different components of their 
system. And Maryland's break the cycle effort is one effort 
that was aimed to look at systemic changes in how the criminal 
justice system works.
    Now, the program has been up and running for less than 2 
years, and it takes a while in terms of getting some of the 
results. But what the initial findings were were, you know, in 
the direction which suggests that some systemic reforms could 
have long-term changes. The first systemic reform was adding 
drug testing as a component.
    What the evaluation found was that by a consistent pattern 
of testing--and when I say consistent I mean every--twice a 
week testing for 3 months in duration, which is unlike most 
other States or jurisdictions where they drug test people at 
most once a week, maybe several times a month, or at random.
    But this consistent pattern of testing reduced the drug 
test positive rate by 53 percent within a 60-day window of 
time. When you do not do the consistent drug testing, what we 
found is that there was not a significant reduction in drug 
test positive rates.
    We also looked at the rearrest rate during this period of 
time for these hard core offenders, or for the offender 
population. Again, most of the offenders here had an average of 
four prior arrests, so they had been through the criminal 
justice system many times. And we have reduced--what we have 
seen is that--this is only Baltimore City data, where for this 
short period of time we reduced the probability of rearrest by 
23 percent.
    That was just merely with the drug testing component. 
Adding treatment and the accountability, which are the system 
components, being built as we are here today; they are in the 
process of construction. You know, the expectation is is that 
we could see even more market changes in terms of rearrest 
rates and improvements in safety in the community.
    As you heard mentioned earlier, this requires better 
coordination across all levels of Government, amongst criminal 
justice and treatment programs, and a tool is the ability to 
track people.
    Have I run out of time?
    Mr. Mica. Getting close.
    Ms. Taxman. OK. And there was a tool that was developed 
under the HIDTA program, called HATTS, that provides a very 
easy tool, but it is difficult to retool the whole industry. 
And when I say the industry, the criminal justice system, the 
public health system, because you have a work force that is not 
used to automation.
    So what we found in the implementation of HATTS is that, 
you know, we basically had to give the employees of these 
programs, whether they be in treatment or supervision agencies, 
computer skills. But as, you know, the county executive, Mr. 
Ruppersberger, talked about, it is important for the criminal 
justice system to be able to talk automatically with other 
systems about the progress of people.
    And what HATTS does is provide a nice tool to get away from 
the phones and faxes and letters sent, so someone can open up a 
screen and see, did the person come to treatment? Were they 
testing positive? Did they go to supervision? Did they go to 
court? And are they working? All of the key components that one 
needs to really know whether someone is making some progress.
    And so there is a need for some more investment, though, 
and, you know, that is part of your responsibility in Congress, 
to really look at how to provide technological tools to help 
advance the field. And, if you would like, I can submit in 
writing some other ideas about technological tools.
    But it is really critical in this thinking about reshaping 
probation, and reshaping supervision, to really work on 
advancement of the field, much like what LEAA provided back in 
the 1970's. It provided the funding for training. It provided 
the funding for tools for the field. And it helped to redirect 
law enforcement into being much more strategic in its 
activities. There has been nothing in the supervision field 
that has really done that.
    In conclusion, I would like to suggest that we really need 
to talk about alternatives to incarceration in the context of 
trying to prevent penetration into the criminal justice system. 
An alternative suggests that the person should go to prison. 
What would be nice is if we really built a structure up front, 
including the juvenile justice system, that was focused on 
prevention and providing the earlier intervention, taking the 
principles of what we know that works for very younger kids who 
start to have troubles within their own communities.
    But we must employ these effective tools and move away from 
the short-funded episodic type of interventions that we seem to 
have a mindset. The gains that can be made are really important 
in terms of trying to overcome, particularly in communities 
like Baltimore City where you have, you know, significant 
poverty problems and other types of social, you know, safety 
net disintegration.
    But even in rural communities, you can see the effects that 
drugs have had in those communities where they could also 
benefit from better quality supervision in building of systems, 
to build a safety net to prevent people from penetrating into 
the system.
    So I would like to suggest, in conclusion, that at the 
Federal level the following would really help States. One is to 
be able to put more funding into supervision agents to protect 
communities. Most States have very large ratios of staff to 
agents, 1 agent to 100 to 300 offenders. Obviously, this is 
very insufficient to meet any type of supervision or oversight 
needs.
    The second, is that we need to fund the expansion of 
graduated responses capacity in many of these systems by 
offering day reporting programs, day treatment programs, longer 
term therapeutic community programs that link across the 
different legal statutes, to really enhance our community 
control efforts, and to focus in on trying to help that person 
learn to restructure their life.
    I would add, that we should try to really move away from 
the simple notions that people have to hit rock bottom to help 
us understand why they need to change their lives.
    Third, I would like to suggest that there is a need to 
expand funding for training and technical assistance, much like 
you did through LEAA, to develop comprehensive treatment, 
testing, and sanction and responses practices throughout the 
jurisdictions.
    [The prepared statement of Ms. Taxman follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.075
    
    [GRAPHIC] [TIFF OMITTED] T8775.076
    
    [GRAPHIC] [TIFF OMITTED] T8775.077
    
    [GRAPHIC] [TIFF OMITTED] T8775.078
    
    [GRAPHIC] [TIFF OMITTED] T8775.079
    
    [GRAPHIC] [TIFF OMITTED] T8775.080
    
    [GRAPHIC] [TIFF OMITTED] T8775.081
    
    [GRAPHIC] [TIFF OMITTED] T8775.082
    
    Mr. Mica. Thank you for your testimony.
    We will now hear from Mr. Ricky Phaison, who is a program 
participant with project excel. You are recognized, sir. 
Welcome.
    Mr. Phaison. Thank you. First of all, I would like to thank 
God for allowing me to be here, and thank Congressman Cummings 
and Congressman Mica for allowing me to testify.
    I want to testify on a personal level. I heard a lot of 
talk today about alternative to incarceration. I remember at 
the end of my addiction when I was--when they locked me up and 
I went to jail, and the furthest thing from my mind was my 
disease, my disease of addiction.
    I knew that I had some type of problem. I just could not 
identify the problem. So when I went to jail, and when I got to 
jail, I didn't see any educational programs, any meetings which 
I attend now, and any 12-step program or nothing when I went to 
jail. So the first thing I had on my mind--my attitude was--
see, all my life I have blamed society on what I did, on all of 
my problems.
    So my thoughts were, while I was incarcerated was, I was 
going to pay society back when I got out of jail. When I got 
out of jail, I paid society back by repeating the same thing I 
had always done. Went back to the same corner, repeated the 
same thing. No education whatsoever. I really didn't understand 
about the disease of addiction. I didn't know I had a problem.
    I had to be at my bottom before I realized that I needed 
some help. I got my help through a treatment center, thank God, 
called excel. And in participating--it was a 28-day treatment 
center, and on the second floor they had a juvenile facility, 
and then on the first floor they had a long-term behavior 
program. And I found out that I had to be broken all the way 
down and built back up again.
    I had to see my personality was part of my problem. My 
addictive behavior was part of my problem. I remember seeing so 
much travesty in my younger life, trying to forget it, and when 
I took that first drug it made me forget all of my problems, 
everything. I didn't start off using drugs to become an addict. 
I started off using drugs as social acceptability, curiosity, 
and then it became my problem at the end.
    At the end, I had to surrender. I had to forgive. I had to 
get off--I had to move out of my way. And I remember going 
through this treatment program, and for the first time in my 
life I started identifying that I had a problem, that I had a 
disease. Now, what am I going to do about this disease? What am 
I going to do about this problem?
    I had to learn how to get rid of all of those deep, dark 
secrets I carried all of my life. I also had to learn how to 
start living step by step, day by day, all over again. I got a 
lot of help through my 12-step program. My 12-step program has 
taught me how to become a father, become a husband, become a 
responsible individual. In other words, grabbed me by the hand 
and rebuild me all over again.
    It has got to be treatment for me. It has got to be 
treatment for me. It is like everybody that I have talked to or 
I have come across in the last 13 years of my sobriety has 
dealt with treatment, has come out of treatment, has been 
successful with going to treatment. A lot of people I know have 
gone into jail have come back out and repeated the same thing.
    So my answer to alternative to incarceration would 
absolutely be treatment. And we need to put everything together 
that I have heard here today and maybe give me some of your 
ideas, and take some of my ideas, and take some of her ideas, 
and take some of his ideas, and then put them all together. 
Because I know every time I come to a symposium, or I see 
something going on like this, when I shared my idea I am 
rolling out the door and I am not listening to other people.
    And I think we all need to listen to each other and come 
together and understand that you can lock me up as much as you 
want to. But, I mean, as long as I am locked up in the mind, 
there is nothing else you can do to me.
    Thank you for letting me share.
    Mr. Mica. Thank you for your testimony.
    We will now hear from Mr. Israel Cason, who is president of 
I Can't, We Can.
    Mr. Cason. Good afternoon. First of all, I would like to 
thank God for allowing all of us to be here. My name is Israel 
Cason. I am the president and founder of I Can't, We Can 
recovery program. I Can't, We Can is a spiritually based tough 
love, self-supported, grassroots, nonprofit recovery program 
for alcoholics and addicts. Our primary purpose is to save 
lives, win souls, and to uplift the fallen of humanity. We 
utilize the therapeutic value of one addict helping another 
addict.
    I Can't, We Can, through positive networking, works closely 
with prosecutors, public defenders, lawyers, penal 
institutions, and judges. We have gained the trust of the 
criminal justice system through the good works we have 
accomplished in our community. As ex-offenders, I Can't, We Can 
staff, we are asked for our opinions and expertise on how lives 
can be changed by way of alternatives to prison.
    Although we are self-supported, we manage to monitor and 
take the responsibility for people who want to change. Through 
urinalysis, case management, tough love, spiritual meetings, 
educational programs, and job readiness training programs, we 
are able to change deviants into productive members of society.
    We realize that people who are imprisoned are a part of 
that fallen humanity, but human nonetheless. As Plato said it 
more than 2,500 years ago, ``the parts can never be well unless 
the whole is well.'' Here the solution must be approached 
holistically. We have come to understand that incarceration 
will never allow a person the opportunity to acquire true clean 
time.
    This clean time--incarceration--does not equal recovery. 
From this observation, we realize that drugs are not the real 
problem, but the symptoms of the problem. We also understand 
that substance abuse and drug addiction are the results of the 
acquisition and the practicing of addictive behaviors. These 
behaviors cause people to form negative networks and thus 
become familiar with that negative environment.
    Now, there is comfortability in familiarity. When people 
are incarcerated, they are attracted to negative networks. This 
means whatever zone they find comfortable to practice their 
addictive behavior in, they will. Case in point: What do you 
have when you clean and sober up a drunken horse thief? Answer: 
a horse thief.
    We have now discussed three parts--the biological, the 
psychological, and the social aspects--of inmates. Let us 
remember that the parts can never be well unless the whole is 
well. A man is made of mind, body, and soul.
    There is another part that needs to be addressed: 
spirituality. We are going to define the term spirituality as a 
source that gives your life meaning and purpose. Spirituality 
allows inmates to encounter that which is unfamiliar to them, 
which is a positive networking. This positive network should 
begin as soon as the inmates are detoxed or free of mind-
altering or mood-changing substances.
    Alternatives to incarceration should be approached with 
familiarity of each individual's background and the 
understanding that what may seem to be the reason for the 
incarceration may only be the effect of the problem which 
caused the incarceration. We also must implement steps to 
change negative networks into positive networks by using the 
following steps.
    Education on the disease of addiction should begin with the 
teaching of psychological effects, sociological effects, 
physical effects, and spiritual effects. Exposure to spiritual 
understanding. Case management should be in place to determine 
short-term and long-term goals. Co-dependents must be 
identified, and if possible, educated. A smooth transition back 
into society must begin long before release, such as birth 
certificates, driver's license, or State ID, Social Security 
card, child support, and housing. Secondary diseases 
identified. A place of residence conducive to recovery 
identified and contacted.
    I Can't, We Can has realized that when given the 
opportunity, the majority of people can make the transition 
back to being a productive member of society. Our recovery 
program has grown into a recovering community that utilizes a 
holistic approach to incorporates individuals back into 
society. This structure, which I Can't, We Can uses, allows 
members to practice building their lives on a daily basis. The 
members live in neighborhoods as residents and neighbors, and 
belong to the community associations, civic groups, religious 
organizations, and support the merchants in our communities.
    The gratitude one acquires for the opportunity to be part 
of such a positive society is tremendous. Residents are 
encouraged to further their education while working on creating 
balanced lives.
    Being a self-supported organization, we have found ways to 
help sick and suffering addicts regardless of their financial 
status. In the therapeutic community, we manage to salvage our 
most precious resource, our people. When people recover, 
everything is reduced--crime, grime, and negativity.
    In conclusion, addicts seeking recovery should not be 
denied treatment or left to die. It is God's will, not ours, 
that must be done.
    Thank you.
    [The prepared statement of Mr. Cason follows:]

    [GRAPHIC] [TIFF OMITTED] T8775.083
    
    [GRAPHIC] [TIFF OMITTED] T8775.084
    
    Mr. Mica. I want to thank all of our panelists for their 
testimony this afternoon. I have a couple of questions. I don't 
want to get too personal, but I want to ask Mr. Phaison and Mr. 
Cason some questions about where we failed as a society, or 
where your problems began, whether--did you have problems as 
far as your family life to begin with, Mr. Cason?
    Mr. Cason. I come from a religious family. My mother and 
father were preachers. But in my environment I learned the 
behaviors of the people that I hung around with and----
    Mr. Mica. So that is where your problems started? You came 
from a very good, religious, nuclear family that--and you say 
that your problems started with the people you----
    Mr. Cason. That I hung around with.
    Mr. Mica [continuing]. Associated with.
    How about you, Mr. Phaison?
    Mr. Phaison. Well, I came--my mother did the best she could 
raising us, and she was a practicing alcoholic. But I never 
wanted to be a part of that family. I always wanted to be 
outside, so I looked for things outside of my family structure.
    Mr. Mica. But is there something that either of you could 
have seen that we could have done early on, either as a 
society--maybe in education, or who you--is there something you 
could identify where you might have taken another path? Mr. 
Cason.
    Mr. Cason. Well, looking back, I see that addictive 
behavior is the polar opposite of spirituality, and no two 
things can occupy the same space at the same time. You either 
have to----
    Mr. Mica. But you hung with some folks, and it must--you 
must have gotten involved either with alcohol or drugs at some 
point. Did you finish your education? Was there ever anything 
in school? Or did you have any exposure to anything that would 
stop you?
    You know, the topic of this is alternatives to 
incarceration, and I am trying to back it up to say, well, 
maybe we are doing something wrong; we didn't do something. We 
obviously short-changed you in some way. You had a good 
religious family, but you said you hung with the wrong guys. 
Were there drugs out there that were available? Did you do this 
because of peer pressure? What happened?
    Mr. Cason. Well, with me, I--the drug life seemed more 
inviting, and it appealed more to me.
    Mr. Mica. Did you finish your education, your high school 
diploma?
    Mr. Cason. Well, I went to jail first.
    Mr. Mica. Went to jail first.
    What about you, Mr. Phaison?
    Mr. Phaison. Well, the----
    Mr. Mica. Was there anything--when did you leave school?
    Mr. Phaison. Well, I attended Antioch University and 
obtained 96 credits in human services and worked in the 
Juvenile Justice Department before I even decided to take a 
drink or a drug.
    Mr. Mica. Before you took a drug?
    Mr. Phaison. Right. Before I took a drink or a drug. In 
other words, I am saying it just--in my----
    Mr. Mica. And then where did you--where did things fail for 
you?
    Mr. Phaison. Well, curiosity, say, killed the cat. I----
    Mr. Mica. So the availability of drugs----
    Mr. Phaison. Yes. Absolutely. It was--I mean, it was just 
readily available.
    Mr. Mica. Readily available for you?
    Mr. Phaison. Yes.
    Mr. Mica. Both in the city of Baltimore and outside?
    Mr. Phaison. Yes.
    Mr. Mica. Still available today?
    Mr. Phaison. Absolutely.
    Mr. Cason. More so.
    Mr. Mica. More so. All over the----
    Mr. Phaison. Yes. Ten times as much.
    Mr. Cason. At one time it was--you know, it----
    Mr. Mica. How would you--I have heard mixed reviews on the 
enforcement. It sounds like there is not that much enforcement. 
If a guy from Pennsylvania can get the locale on a 7-11 wall 
for where to get drugs in Baltimore, it doesn't sound like 
there is much enforcement here. So is that part of the problem 
or----
    Mr. Cason. Yes, I think that if they would go after the 
drug dealers--instead they are chasing the victims.
    Mr. Mica. Yes. Well, you are the--you are victims. There 
are a lot of young people that are victims, but they are not 
going after--we heard Judge--was it Johnson, the other judge?
    Mr. Cummings. Right. Yes.
    Mr. Mica. He said that the people that are making the 
money, that are doing the deals, the big deals, and bringing 
the drugs in, there is no--I said there is no poppies or coca 
grown in Baltimore.
    Mr. Cason. That is right.
    Mr. Mica. That I know of. So we are not going--there is 
definitely a plentiful supply and availability, and somebody is 
making money and killing people off of this deal. Is that 
correct?
    Mr. Cason. Right.
    Mr. Phaison. Absolutely.
    Mr. Mica. You think so?
    Mr. Phaison. Absolutely.
    Mr. Mica. So that is part of it.
    You have both been involved in treatment programs. And you 
are both here, you said, by the grace of God. And you are lucky 
because there is--I don't know the names behind these. I have 
read some of them before, the ones that died in Washington and 
Baltimore. On the House floor, I do that from time to time.
    I picked up a paper--I fly into Baltimore and often pick up 
a paper and read of the slaughter going on here. And it has got 
to be humanity and a real person behind all of those people 
that die, and certainly you two are fortunate to even be with 
us.
    My question is, again, what elements--you both came from--
you told me yours was faith-based, no public money, did you 
say? Or is there public money?
    Mr. Cason. No public moneys.
    Mr. Mica. And what about you?
    Mr. Phaison. Well, we had public money, but when they took 
away the public funds, the treatment centers closed.
    Mr. Mica. You did have, though.
    Mr. Phaison. Yes.
    Mr. Mica. But you both came out of treatment programs that 
worked, one that is closed, one that is faith-based that we 
couldn't put money----
    Mr. Cason. Well, we are spiritually based, and we still 
operate now. We have over 500 people that is in the program.
    Mr. Mica. All right. Well, I am just trying to find out--we 
are spending a lot of money on the whole drug effort--
prosecution, enforcement. Mr. Cummings and I helped put 
together $1 billion education program, which is underway now, 
plus combined with private donations it will be double that, we 
hope. And we are trying to find out what works.
    As a final question, what in these programs really made a 
difference in your lives that we could replicate in our future 
programs?
    Mr. Phaison. Well, for me it was ``Talk, Hurt, and Grow.'' 
In other words, I identified what the problem was and talked 
about it. You talk about a bad----
    Mr. Mica. And there were elements of that program that 
helped you get to that point.
    Mr. Phaison. Absolutely.
    Mr. Mica. And that is what is important to you, sir.
    Mr. Cason. To me, the key is to bring a person to a 
spiritual awakening, and that is--you have to work on addictive 
behaviors, because they are two--that is what gets two 
different results. One is spiritual and one is addictive 
thinking. And that takes a process. A spiritual awakening, a 
person will become self-supporting and productive members of 
society.
    Mr. Mica. Just a final question for Dr. Taxman. I heard you 
testify to different things. You said the criminal justice 
system is sometimes a joke, that we need swiftness and 
certainty--and you gave several elements--in these programs. 
That you know that drug testing does produce better results if 
it is an element introduced into these programs.
    Why haven't these reforms, if we know what works, and 
elements like drug testing that prove such dramatic increases 
in success, why haven't those reforms been instituted? And that 
is the first part of my question. And the second is, should the 
Federal Government mandate that they be a part of programs to 
receive our funds, at least our funds?
    Ms. Taxman. I think that the first question you asked is 
why aren't the best practices that we know are available, put 
in place in programs across the Nation----
    Mr. Mica. Well, let us just deal with right here.
    Ms. Taxman. OK. Or here. And I think part of it is there is 
a gap of knowledge in terms of, you know, what is funded and 
what the practitioners look at in terms of their base. And over 
the last 5 years, there has been an increase in terms of trying 
to disseminate more best practice information.
    So some of the things that I talked about are things that 
the research literature has discussed over the years, but 
hasn't necessarily been readily available in the actual field.
    Mr. Mica. OK. The other part is you testified here today 
you know what works.
    Ms. Taxman. Well, the components.
    Mr. Mica. Why shouldn't Mr. Cummings and I go back and make 
that a requirement to get Federal funds so that we would 
require that what you say works is incorporated in these 
programs to make them successful?
    Ms. Taxman. I would think that it would be good for there 
to be some Federal initiatives that have standards in them. 
Much like what RSAT tried to do was putting some standards into 
place. What is good quality prison-based treatment? The same 
could be true for the Federal block grant dollars that go to 
many of the States in terms of their public health funding for 
treatment and prevention programs.
    There is no Federal initiative on drug testing itself, but 
it seems to me that it would make a lot of sense, and the 
research literature suggests that drug testing should be in 
drug treatment programs as well as in correctional programs. 
Why those haven't occurred in the past has to do a lot with 
what you heard today--a lack of funding specifically.
    I mean, program administrators have choices. They fund 
clinical services, or they fund drug testing. And they are 
scrambling enough to fund quality, you know, clinical services. 
So they took away from other things that they would like to do.
    If you talk to many of the treatment providers in the city, 
they would desire for more drug testing as well as the ability 
to expand the types of services that they offer to clients.
    Mr. Mica. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much.
    As I listened to the testimony, I couldn't help but think 
about all of the people who are dead, you know, the ones who 
were not as fortunate as you all here today.
    And, Mr. Phaison, you and I have talked about this. One of 
the things that--and it is the direct result of my 
conversations with you that I have constantly pushed in the 
last few hearings that we have had in Washington about 
effective drug treatment. One of the things that you said to me 
a while back is that one of the worst things you can do is send 
an addict to a treatment situation that ain't real. It is not 
real.
    Mr. Phaison. Yes.
    Mr. Cummings. Because all that does is send it is very 
frustrating and, of course, he is not getting better.
    Mr. Phaison. Right.
    Mr. Cummings. Right now, I guess you have a lot of people 
that come to you asking for----
    Mr. Phaison. Oh, yes.
    Mr. Cummings [continuing]. Help.
    Mr. Phaison. Oh, yes, on a daily basis, sir. I have about 
15 or 20 people on a daily basis trying to get into treatment. 
Thank God for my commitment, so I have at a couple of treatment 
centers that allow me to get a couple of free slots every 
month. But if you have got 20 people per day asking you and you 
have only got one or two slots per month, you know, it just 
doesn't add up.
    You know, I have a question, too, because I remember 
speaking in front of Congressional Black Caucus before, and as 
a result you said $156 million was allocated for the black and 
Hispanic community----
    Mr. Cummings. That is right.
    Mr. Phaison [continuing]. On drugs and AIDS. But in my 
community, I still have not seen any change. See, we are 
talking $156 million, but when it trickles down I really 
haven't seen any change.
    Mr. Cummings. Well, I can address that at some other point. 
Let me just ask my questions.
    Mr. Phaison. OK.
    Mr. Cummings. But I can tell you one of the organizations 
that received some of that $156 million is Ms. Pascal, who is 
right behind you. And I think she can tell you that we pulled 
together a little coalition to try to deal with the whole drug 
problem, but I want to talk to you about that.
    But let me just ask you this. There is something about that 
critical point when you said people come to you asking for 
treatment. I mean, where are you looking to send them? In other 
words, what are the things that you think are going to be 
best--I know everybody is different. But you are just not going 
to send them anywhere.
    Mr. Phaison. No. First of all, I am going to look for the 
sincerity. That is No. 1, because a lot of times people have a 
tendency to play a lot of games. I can't. I have to look for 
the sincerity of the person because I may only have one or two 
slots, with 200 people asking for them.
    So I have to try to the best of my ability, to feel them, 
to understand that this is what they really want because once 
you put them--or once you suggest where they should go, and 
they go and they don't stay, that is not--the credibility is 
not good for you.
    Mr. Cummings. OK. Assuming that they are sincere----
    Mr. Phaison. Assuming that they are sincere----
    Mr. Cummings [continuing]. What criteria are you looking 
for? If you have five or six different programs, what are you 
looking for as far as treatment and thinking, hoping, and 
believing that it will be most effective? That is what I am 
trying to get at.
    Mr. Phaison. OK.
    Mr. Cummings. In other words, you are just not going to 
send them anywhere.
    Mr. Phaison. Right. In other words, I am looking for a 
place like I went to--excel, the drug treatment center. They 
have seminars. They have candlelight seminars. They talk--they 
have a program called ``Talk, Hurt, and Grow,'' to get down to 
the root of the problem.
    I wouldn't just send them somewhere where they--you know, 
people are just getting a dollar, just getting a dollar for 
them. I am going to send them somewhere where they really, 
really can get some help, and they have recovering addicts who 
work in those positions who really understand where they are 
coming from.
    Mr. Cummings. Now, Dr. Taxman says that you have to have--
the most effective treatment needs to be--you need to spend a 
substantial amount of time in-house. Is that right, Dr. Taxman?
    Ms. Taxman. Well, when you say in-house, do you mean in a 
residential component?
    Mr. Cummings. Yes.
    Ms. Taxman. No. It is really an issue of trying to use 
residential services for those who need to be away from their 
community stabilizing themselves. So it depends on the person, 
but I would say from what we have learned that somewhere around 
30 percent of the people need some sort of residential 
component.
    Mr. Cummings. And that is so that they can get away from 
their community.
    Ms. Taxman. Right. For those who are probably less 
motivated, for those who need more stable--initial 
stabilization. I think the key is making sure that the 
treatment process includes a motivational enhancement component 
up front. A lot of people aren't quite ready there. Whether you 
are trying to decide to quit smoking, or you have a diabetic 
situation, you don't come to a doctor saying, I want to change 
my behavior today. You need to be motivated to do that.
    So I was just going to add that it is really a treatment 
process. The way funding is for treatment is thorugh episodes 
usually. You fund an outpatient program that has an episode to 
it. You don't fund a treatment process for a person. So that if 
they can begin--let us say if they need some residential, and 
then move from a residential to day treatment to an outpatient 
program, to some support services.
    Mr. Cummings. In one of our recent hearings with SAMHSA, we 
spent quite a bit of time talking about the best practices, and 
one of the things that they said was that there are some 
States, that when it comes to drug treatment they don't have 
any way of analyzing whether the treatment is effective. On the 
other hand, there are States that do.
    Ms. Taxman. Right.
    Mr. Cummings. Is that something that you think is important 
as far as when a State takes a look at effective treatment, to 
have some kind of criteria?
    Ms. Taxman. Most definitely. You know, in the public 
sector, what we are most concerned about is getting outcomes 
that, you know, work toward the greater good of trying to help 
people recover. But we have to be able to sort through two 
issues: what programs work, and what programs work for what 
types of people. And without having good data, you really can't 
make those determinations.
    The field has suffered because we don't have enough 
studies. I mean, NIDA has done and CSAT has done some studies 
over the last 5, 7 years that have found the base for us. But, 
really, if you look over the last 30 years, there are very few 
studies that have been done on different types of programs' 
effectiveness.
    Mr. Cummings. Mr. Cason, this is my last question. We are 
running out of time here. But, looking back at what you are 
dealing with today and the process that have been through, and 
going back to some things that Chairman Mica was talking about 
is how do we try to make sure that people--do what we can to 
make sure that people don't have to go through what you did.
    I mean, are there things that if you could request of 
Congress, in the most powerful Nation of the world, what would 
you want to see? I am just curious.
    Mr. Cason. Well, first of all, I would like to see that--
because the grass-roots organization, we work with the people 
that is in the city, in the gutter, and in the neighborhood. 
And a lot of the addicts that is recovering becomes the example 
that--to the people that is coming up. That is the preventative 
measurement.
    I would like to see the recovering communities be more 
supportive because they get no support from State, Federal, or 
nobody. So we have got to become self-supporting, which is that 
adversity causes us to develop because we are going to recover 
anyway.
    But I would like to see the people be held accountable 
because we have got people who come from jails, from 
institutions, and they send them to this--to our program, and 
if they would have kept them in jail they would have to pay for 
them. But they refuse to give us any money. We have got 
hundreds of people that are coming out of jail every day--I 
mean, that is in the program.
    Mr. Cummings. I just want to take a moment to thank all of 
you for--and everybody who testified today. This is an ongoing 
struggle, as you all well know. And I think when we look at--I 
once said that, you know, when drugs was introduced to this 
society, it really--I mean, and when people talk about drug-
infected, that is probably a very accurate word, because I 
don't think a lot of people even know the depth of the drug 
problem.
    I am not just talking about the person who is addicted. I 
am talking about the family members and the children, and it 
just goes on and on. Even people who may be in the choir every 
Sunday and singing may have a son who, you know, who is drug 
addicted. And the deaths that we see. But I am just hoping that 
hearings like this puts a face on this whole situation.
    One of the reasons why, as I conclude, Mr. Chairman, I 
wanted to come to Baltimore was because so often in Congress we 
hear about Baltimore and the negative comments about drug 
addiction and various problems. A lot of times I think it is 
important to put a face on all of that. I think it is important 
to put a face on the fact that there are people who are 
struggling every day, who have had problems, but got up, dusted 
themselves off, and are doing a good job now.
    We didn't get into it too much, Mr. Phaison, but the fact 
that you are a barber and you took off today, and you are not 
going to regain that money----
    Mr. Phaison. Certainly not.
    Mr. Cummings [continuing]. But nobody is going to pay you 
leave time.
    Mr. Phaison. We can talk about that.
    Mr. Cummings. Yes. [Laughter.]
    But the fact is that that is the kind of commitment, Mr. 
Chairman, that I am talking about. And I am sure it is a 
similar situation for you. And, Dr. Taxman, all of the work 
that you have done, and you seem like you have made a life 
commitment to try to address this problem. And we appreciate 
it.
    And I guess what I am trying to explain to you is that we 
take this--several reporters have asked, ``Well, what do you do 
with all of this?'' What we do is I think we have to--we can't 
just be policymakers. Dr. Martin Luther King, Sr., said you 
cannot lead where you do not go, and you cannot teach what you 
do not know. And that is why it is so important for us to reach 
out and come here and listen and try to figure this out.
    As a matter of fact, I know, that these hearings have an 
impact. When somebody like Chairman Mica addresses his 
Republican colleagues, he has a greater base of knowledge 
because he was here and he is senior.
    My last question is--and I have said it earlier, Mr. 
Phaison and Mr. Cason, I am amazed at the number of recovering 
addicts in Baltimore who are successful. I am sure there are 
thousands upon thousands----
    Mr. Phaison. Absolutely.
    Mr. Cummings [continuing]. Working every day, who have been 
working for years, raising their families, doing what they are 
supposed to be doing. They don't drink, smoke, and a lot of 
them don't even take an aspirin.
    Mr. Phaison. Right.
    Mr. Cummings. A fellow was telling me that the other day 
because he considers it a drug. They are special people, and I 
want to thank you all for being here, and I want to thank you, 
Ms. Taxman.
    And I want to thank the university, as we come to our end, 
I want to thank everybody, my staff, who has worked tirelessly 
on this and done a great job. And I want to thank the majority 
staff, too. Ms. Beverly Fields who is in the back, our 
legislative director in Washington, and Aliyah Horton, who is 
out in the hall, and others, who have worked so hard to make 
this happen. I want to thank you.
    Mr. Mica. Thank you, Mr. Cummings, and I do appreciate each 
of our witnesses coming forward today. And I know you waited 
some time to testify, particularly those who gave up 
compensation personally to be with us and provide testimony at 
this hearing.
    And just to reiterate what Mr. Cummings said, what we do 
with this is we try to take this back. Our subcommittee is 
responsible for trying to put together a coherent Federal drug 
policy. The speaker--I inherited this responsibility from the 
current Speaker of the House, Mr. Hastert, who I can tell you 
this is one of his very highest priorities, that we get a 
handle on this, that we fulfill our Federal responsibility.
    If the war on drugs was closed down, as we heard--was it 
Judge Johnson also say--that that has become a joke. That is a 
Federal responsibility, to stop this stuff before it ever gets 
into our shores or into these communities. And that needs to be 
fulfilled.
    This is an incredibly--I am a bit of a historic fan. I love 
history. This community holds an incredible amount of rich 
history from this Nation, and there is no reason that it should 
be in the condition or the situation it is in today, that we 
are just left with--and we don't want to be just left with 
discussing alternatives to incarceration, incarcerating the 
population or remembering the thousands that have been lost in 
this war. We have got to turn this around.
    So we will meet with the HIDTA. We will meet with our 
Federal officials involved that are supposed to be working with 
Maryland and with this local community. We will convene as many 
meetings as we need, additional hearings. We have got to do 
something to fulfill our responsibility to the good people of 
this community and the country. We cannot let this continue.
    So with that commitment, Mr. Cummings, I thank you again, 
your staff, and others, for helping bring us here, and for your 
commitment to working together to resolve this problem for our 
community and Nation.
    There being no further business to come before this 
subcommittee, this meeting of the Criminal Justice, Drug 
Policy, and Human Resources Subcommittee is adjourned.
    [Whereupon, at 1:57 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8775.085

[GRAPHIC] [TIFF OMITTED] T8775.086

[GRAPHIC] [TIFF OMITTED] T8775.087

[GRAPHIC] [TIFF OMITTED] T8775.088

[GRAPHIC] [TIFF OMITTED] T8775.089

[GRAPHIC] [TIFF OMITTED] T8775.090


</pre></body></html>
